<html>
<title> - COUNTERTERRORISM</title>
<body><pre>[Senate Hearing 105-711]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-711


 
              COUNTERTERRORISM--EVALUATING THE 5-YEAR PLAN

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations


                                <snowflake>

 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate

                                 ______

                       U.S. GOVERNMENT PRINTING OFFICE
 51901 cc                     WASHINGTON : 1998
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 20402


                       COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             DALE BUMPERS, Arkansas
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
CONRAD BURNS, Montana                TOM HARKIN, Iowa
RICHARD C. SHELBY, Alabama           BARBARA A. MIKULSKI, Maryland
JUDD GREGG, New Hampshire            HARRY REID, Nevada
ROBERT F. BENNETT, Utah              HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
LAUCH FAIRCLOTH, North Carolina      BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

   Subcommittee on Commerce, Justice, and State, the Judiciary, and 
                            Related Agencies

                  JUDD GREGG, New Hampshire, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
MITCH McCONNELL, Kentucky            DALE BUMPERS, Arkansas
KAY BAILEY HUTCHISON, Texas          FRANK R. LAUTENBERG, New Jersey
BEN NIGHTHORSE CAMPBELL, Colorado    BARBARA A. MIKULSKI, Maryland
                                     ROBERT C. BYRD, West Virginia
                                       (ex officio)
                           Subcommittee Staff
                              Jim Morhard
                             Kevin Linskey
                               Paddy Link
                               Dana Quam

                         Scott Gudes (Minority)
                              Emelie East

                               Detailees
                             Carl Truscott
                               Derek Orr


                            C O N T E N T S

                              ----------                              

                         DEPARTMENT OF JUSTICE

                                                                   Page

Statement of Hon. Janet Reno, U.S. Attorney General..............     1
Statement of Hon. Louis J. Freeh, Director, Federal Bureau of 
  Investigation..................................................     1
Prepared statement of Senator Judd Gregg.........................     3
Attorney General's opening statement.............................     3
Five-year counterterrorism plan..................................     4
Current response to terrorist attacks............................     4
Involvement of Strategic Information Operations Center...........     5
Domestic emergency support team..................................     6
Training exercises...............................................     6
Encryption.......................................................     6
Cybercrime.......................................................     7
Overseas terrorist acts..........................................     8
Prepared statement of Janet Reno.................................     9
Nature of the terrorist threat...................................    11
Organization of the Federal Government to prevent and respond to 
  terror- ism....................................................    12
Improving our capability to prevent and respond to terrorism.....    19
Director Freeh's statement.......................................    21
History of counterterrorism......................................    21
Counterterrorism threats.........................................    22
Counterterrorism coordination....................................    23
Role of the NSC..................................................    24
Role of National Guard and DOD...................................    24
Domestic preparedness program....................................    25
DOD-Justice coordination.........................................    25
Status of title V exemption......................................    26
Infrastructure protection........................................    27
Israeli hacker case..............................................    27
International cybercrime.........................................    28
Technology exploitation..........................................    30
Encryption.......................................................    31
Anthrax threat in Las Vegas......................................    32
International coordination.......................................    32
Pan Am bombing...................................................    33
Improving response to terrorism..................................    34
Prepared statement of Senator Richard C. Shelby..................    35
Additional committee questions...................................    36
Questions submitted by Senator Pete V. Domenici..................    36
    U.S. attorneys...............................................    36
    Counterterrorism technology R&D..............................    37
    First responder training.....................................    40
    National Infrastructure Protection Center....................    44
    Mexico drug certification....................................    45
Questions submitted by Senator Ernest F. Hollings................    47
    Cybercrime...................................................    47
    State and local cooperation..................................    50
    Wire tapping/encryption......................................    52
    NSC domestic antiterrorism czar.........................52<greek-l>

                                   (iii)


              COUNTERTERRORISM--EVALUATING THE 5-YEAR PLAN

                              ----------                              


                        TUESDAY, MARCH 31, 1998

                           U.S. Senate,    
     Subcommittee on Commerce, Justice, and
        State, the Judiciary, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:57 a.m., in room S-146, the 
Capitol, Hon. Judd Gregg (chairman) presiding.
    Present: Senator Gregg.
    Also present: Senator Shelby.

                         DEPARTMENT OF JUSTICE

STATEMENTS OF:
        HON. JANET RENO, U.S. ATTORNEY GENERAL
        HON. LOUIS J. FREEH, DIRECTOR, FEDERAL BUREAU OF INVESTIGATION

    Senator Gregg. It is a little early, and I certainly 
appreciate the Attorney General and the Director being here 
early. But I suspect there are other Senators that are going to 
come, so I will make my statement and take it up to 10 o'clock, 
and, hopefully, the other members will be here.
    We do have a vote at 10:30, and I would hope that we could 
get the opening statements of the Attorney General and the 
Director in before that, and then come back and do questions 
right after the vote.
    The purpose of this hearing is to review the efforts of the 
agencies, of the Justice Department, specifically, but the 
agencies generally within the Government that are charged with 
the question of counterterrorism and protecting our country 
from terrorist acts.
    A couple of years ago this committee became very focused on 
this issue, and initiated the first major expansion of funding 
in the area of counterterrorism. The purpose of that was to 
assist the FBI, specifically, and other agencies throughout the 
Government in being able to pursue an effective 
counterterrorism strategy. That has been very successful in the 
sense that it has brought about an expediting of planning and 
an expediting of the efforts of coordination. As chairman, I 
have had a chance to visit almost all the major agencies 
involved in counterterrorism, not only those that are under the 
jurisdiction of this committee, but also agencies outside the 
jurisdiction of this committee.
    This committee does have a large jurisdiction, because it 
has both the FBI and the Justice Department, which have the 
domestic responsibility, and it has the State Department, which 
has the international responsibility. And in visiting these 
agencies, I must say I have been impressed with the energy, the 
enthusiasm, and the commitment and the sincerity of the 
commitment in trying to develop a coordinated counterterrorism 
strategy for the country.
    But we are clearly in the infancy stage. We are not, by any 
stretch of the imagination, at a point where we have a mature 
program that is effectively functioning and that really is not 
the failure of the Government agencies involved. It is simply 
the factor of the threats changing so radically as we move into 
this part of the history of man--especially the expansion of 
weapons of mass destruction--something that had not really been 
anticipated at the level it is today, even just a few years 
ago. We did not know the effects that terrorist action can have 
on the infrastructure, which has now become so electronically 
dominated.
    Those two factors, which really were not a high visibility 
threat just 5 years ago, are today not only a high visibility 
threat, but a legitimate threat, and something that we have to 
address. So tooling up to address those factors, those two 
areas, has been and will continue to be an intense and complex 
effort. I certainly respect and congratulate the various 
agencies that have been involved in this.
    The primary concern of this committee is the jurisdiction 
of the Justice Department and the State Department, but we have 
attempted, as a committee, to try to push a coordinated 
strategy. As part of that we asked for a report which the 
Attorney General is going to talk about today, which would 
develop a core around which we could develop a strategy. I look 
forward to hearing about that report.
    In addition, we have as a committee made a commitment of 
resources which is considerable. We want to make sure those are 
not being duplicated in other departments, but are going toward 
the specific needs that we have assessed as necessary in order 
to address this threat.
    In sort of a declining level of threat, the first threat is 
weapons of mass destruction, exercised either by individuals or 
by other nations. The second threat is the threat to our 
infrastructure, especially the technology threat to our 
infrastructure. The third threat is an individual acting as a 
free lancer, or an individual group acting as a free lance 
group, which commits a terrorist act. Each one of these threats 
take different response structures and fairly complex response 
structures.
    The question is, are we putting together a process which 
adequately anticipates the threat, and, hopefully, gives us the 
opportunity to cut it off before it occurs, not only 
domestically, but internationally? Second, if we have an event 
occur, are we adequately equipped to respond to it both from a 
standpoint of taking care of the damage and the injuries which 
may occur and also pursuing the perpetrators. Those are the 
elements that need to be addressed in any comprehensive 
counterterrorism strategy.
    The problem is that we have, by my count, something like 15 
different agencies which are charged at some level with 
counterterrorism responsibility. They are across the 
Government, and the coordination of those agencies is what the 
first step has to be--making sure that they are talking to each 
other and that there is a central, coordinated approach to the 
issue.


                  prepared statement of senator gregg


    And so that is what the committee asked the Attorney 
General and the FBI to develop, and we are going to hear today 
as to how that is proceeding. There have been press reports 
relative to, regrettably, some turf issues, which, hopefully, 
we can address today. We can talk a little bit about where we 
need to go from here, as we go from the process of developing a 
strategy to the process of implementing one.
    [The statement follows:]

                Prepared Statement of Senator Judd Gregg

    I want to thank the Attorney General and the FBI Director 
for coming here today. Terrorism is both a threat to our 
national security as well as a criminal act. We must use all 
appropriate means to deter, defeat, and respond to terrorist 
attacks.
    That is why last year, this subcommittee directed the 
Attorney General to prepare a plan that would lead us to being 
pro-active to the threat and also be able to respond to a 
terrorist event.
    While the number of terrorist incidents has declined in 
recent years, the level of violence and lethality of attacks 
has increased. There is a continuing trend toward more ruthless 
attacks on civilian targets. Also, the capability of hostile 
nations and terrorists groups to acquire weapons of mass 
destruction is greater than ever before.
    Until this decade, biological and chemical weapons were the 
province of superpowers or renegade states like Iraq and North 
Korea. All that changed with the Aum Supreme Truth sect in 
Japan. The cult's scientists produced anthrax, botulin toxins 
and sarin.
    We talk of weapons of mass destruction and you immediately 
think of nuclear weapons. A nuclear incident is actually a less 
likely scenario than biological or chemical weapons attacks.
    Also, we must begin to educate people on the risks involved 
with computer systems that make up much of our critical 
infrastructure. It is now reported that six out of ten 
businesses, government offices, and universities are reporting 
computer security breaches. Many incidents continue to be 
adolescent pranks, but security experts universally agree that 
the political and financial risks of break-ins will rise.
    The plan we directed the Attorney General to do is in its 
first phase. The working groups have been assembled. They will 
address prevention, deterrence, crises management, consequence 
management, cyber-terrorism, critical technologies and R&D. 
These working groups are made up of DOJ, FBI, DOD, Treasury, 
CIA, NSA, DOE, EPA, FEMA, PHS, FAA, Commerce, and DOT.
    I commend the Attorney General for her effort on this 
important issue. None is more important to this Nation. And no 
one wants to look back and say we could have done more.


                  attorney general's opening statement


    Senator Gregg. I thank the Attorney General and the 
Director for being here, and since it is 10 o'clock we shall 
proceed. So, Madam Attorney General.
    Ms. Reno. Thank you, Mr. Chairman.
    Mr. Chairman, I think I speak for Director Freeh, as well. 
We both appreciate the leadership that you have shown in this 
area. The great time and effort that you have put into visiting 
the agencies, understanding the issues, and prodding all of the 
Government to come together to develop cohesive plans that can 
effectively address modern day terrorism.


                    five-year counterterrorism plan


    One of the points that you have raised is your desire as 
spelled out in the appropriations bill for a 5-year interagency 
counterterrorism and technology plan.
    As you know, we have submitted to you an outline of issues 
for a 5-year interagency counterterrorism and technology crime 
plan, and have gone over it with you and will continue to keep 
you apprised as we prepare this plan. It is my expectation that 
the final plan will constitute a road map of counterterrorism 
efforts for the next 5 years, which will demonstrate both the 
existing strength and future enhancement of these interagency 
efforts.
    It will be tied in with the spending plan that you again 
have taken the leadership to mandate, which I think has already 
proven to be a useful tool in making sure that we use our 
limited dollars as wisely as possible, building on 
appropriations efforts in the various agencies.


                 current response to terrorist attacks


    Our primary objective is to prevent terrorist attacks 
before they occur. I think we spelled that out clearly in the 
strategy. The life blood of prevention, however, is foreign 
intelligence information from the intelligence community about 
the identity, the plans and the movement of international 
terrorists, and information developed by the FBI about the 
activities of terrorist groups in this country.
    The FBI vigorously and appropriately develops information 
from a variety of sources, consistent with the Attorney General 
guidelines, on general crimes, racketeering enterprise, and 
domestic security terrorism investigations. Information about 
terrorist threats is shared with appropriate agencies in a 
threat assessment conference which analyses the threat, 
determines whether it is plausible, and how the threat might be 
carried out; then prepares and positions the appropriate 
resources to respond to the threat.
    The procedures for responding to threatened or actual 
terrorist events represent more than just abstract plans. They 
have been developed based on lessons learned in responding to 
past terrorist events.
    I would like to publicly commend Director Freeh for the 
leadership that he has shown in a number of arenas with respect 
to the prevention of terrorist attacks in the United States, 
with the thoughtful way that he has approached it, in terms of 
gathering the information, consistent with the guidelines, 
working with State and local agencies across the country, and, 
I think, taking very effective action.
    Many of these plans have been the subject of tabletop and 
field training exercises which facilitate the development of 
important coordinative relationships and the identification of 
those procedures which require modification of refinement.
    When we are confronted with a major terrorist act within 
the United States, it is almost always local authorities who 
are the initial responders. It is their efforts in the minutes 
following a terrorist act that we rely on to save lives, 
contain the scope of the crisis, and apprehend terrorists who 
may be fleeing the scene. It is for this reason that programs 
that provide training and support for local authorities such as 
those provided by the Defense Against Weapons of Mass 
Destruction Act of 1996 are so important.
    As a matter of established practice, local authorities 
quickly notify the local FBI office of the event. Bureau field 
offices are trained to initiate immediately and simultaneously 
a number of responsive actions when confronted with a major 
terrorist act. Those actions, which are undertaken in 
coordination with the other agencies, include the initiation of 
a site survey of the crime scene to assess the potential of 
continuing danger and to evaluate preliminarily the relevant 
forensic aspects of the crime; coordinate with local emergency 
responders in an effort to insure optimal efforts to save lives 
while preserving evidence important to a later prosecution; 
notification of headquarters and the local U.S. attorney's 
office.
    They form a joint operation center in proximity to the 
crime scene to bring together representatives of all pertinent 
Federal, State, and local agencies; they identify and 
coordinate with the U.S. attorney and local authorities a 
central point of contact for the dissemination of information 
to the public. And I think under Director Freeh's leadership 
what was done in Oklahoma City, with Oklahoma City police, with 
so many people working together was a classic example of how it 
should be done.


         involvement of strategic information operations center


    While these activities are underway in the field, the 
headquarters in Washington immediately act to bring together 
the pertinent headquarters support staff. The Strategic 
Information Operations Center [SIOC] is immediately activated 
and staffed on a 24-hour basis. It combines the resources and 
expertise of representatives of 19 Federal agencies, which 
support this effort, and the representatives of the pertinent 
agencies are integrated into the SIOC operation.
    Additionally, officials at headquarters coordinate through 
the SIOC, and evaluate with the Bureau's on scene commander and 
the local U.S. attorney the deployment of additional 
specialized resources to the scene. These resources include 
experts in explosives, bomb scene reconstruction, and evidence 
preservation; specialized units such as evidence response 
teams, hazardous materials response unit, and a rapid start 
computer data base team.
    This has been fascinating to watch, the use of the rapid 
start system, and the ability of the Bureau to assimilate in 
very rapid fashion pieces of data from so many different parts 
of the investigation into an inclusive whole that can be used 
so effectively, both to identify the perpetrator and to prepare 
the case. And this early ability to respond in that fashion, I 
think, has proven essential in some of our successes.
    Agents with pertinent skills from surrounding Federal 
investigative field offices are made available. FBI SAC's with 
specialized training in crisis response are available on a 24-
hour basis. Where multiple SAC's are sent in to augment the 
local SAC, one is selected as the overall on scene commander.
    In addition, we have attorneys who are trained in critical 
incident response available to advise and assist the local U.S. 
attorney.


                    domestic emergency support team


    When appropriate, the FBI can activate the domestic 
emergency support team [DEST], which is an interagency team 
that can be tailored to the needs of the specific terrorist 
event, and is available to be air lifted to the scene within a 
matter of hours.
    Its function is to provide the expert guidance that is 
necessary, especially to address chemical, biological, and 
nuclear incidents. The chem-bio module combines the expertise 
of representatives from the FBI, DOD, the Public Health 
Service, EPA, and FEMA. The nuclear radiological module 
combines the expertise of representatives of the Bureau, the 
Department of Energy, the Department of Defense, the Public 
Health Service, and FEMA.
    Through the utilization of these and other procedures, it 
is possible for the Department of Justice and the FBI, working 
together with other agencies to quickly mount a major, highly 
trained response to a terrorist threat or act. That response is 
designed to integrate the efforts of all involved through the 
Joint Operations Center, while using the SIOC to insure that 
nationwide and pertinent worldwide support from all appropriate 
Federal agencies is available in a prompt and coordinated 
manner.
    While we believe that the response plan is sound, we 
recognize that the threat posed by chemical, nuclear, and 
biological weapons poses tremendous challenges that require 
that capabilities and coordination be enhanced at all levels of 
Government.


                           training exercises


    Training exercises are conducted frequently to evaluate 
progress. For example, the FBI's critical incident response 
group [CIRG] sponsors eight regional crisis management training 
exercises annually, many of which involve weapons of mass 
destruction. Each exercise involves personnel from FBI 
headquarters and multiple field offices, as well as other 
pertinent Federal, State, and local agencies.


                               encryption


    Let me briefly address one problem that is posed to our 
terrorism and enforcement efforts by developing technology. The 
widespread use of strong encryption by terrorists and other 
criminals, unless it provides for lawful access to plain text 
by law enforcement authorities, would have catastrophic 
implications for our ability to detect, prevent, and 
investigate terrorism. Unbreakable encryption allows terrorists 
to communicate about their criminal plans with impunity. 
Developing a balanced approach to robust encryption is an 
extremely serious public policy issue that urgently, urgently 
needs to be resolved, and requires attention from Federal, 
State, and local Government officials and from the private 
sector.
    To this end, the administration has launched a focused 
initiative to work closely with the information technology 
industry to develop technical and policy solutions that 
represent balanced approaches to strong encryption. We have 
requested a legislative moratorium on encryption matters while 
we attempt to develop these solutions. Another problem posed by 
evolving technology relates, as you have pointed out, to 
cyberterrorism.
    To date, U.S. interests have not been victimized by 
cyberterrorism. However, the potential is clearly present, and 
the significance of the threat is reflected in the work of the 
President's Commission on Critical Infrastructure Protection, 
which issued its report in October 1997.


                               cybercrime


    One unique challenge presented by computer crime is that it 
knows no geographic bounds. As a result, we have established 
local, regional, and national capabilities to provide the 
flexibility necessary to address this type of crime.
    Additionally, we are working with our foreign counterparts 
through, for example, a subcommittee of the eight, the Council 
of Europe, and the Organization for Economic Cooperation and 
Development to develop effective mechanisms for coordination.
    In February 1998, I announced the formation of the National 
Infrastructure Protection Center, which encompasses and expands 
the mission of the FBI's Computer Investigations and 
Infrastructure Assessment Center, which was formed in 1996.
    One of the strengths of the NIPC is that it integrates the 
efforts of two Federal agencies which shared jurisdiction over 
cybercrime--the Secret Service and the FBI. Additionally, we 
have formed regional FBI computer crime squads with technical 
skills and equipment. These squads work closely with the 
computer telecommunications coordinator [CTC] in each U.S. 
attorney's office within their region. All U.S. attorney's 
offices now have a specially trained CTC.
    Utilizing these resources and coordination arrangements, we 
are preparing ourselves to address potential acts of 
cyberterrorism. Investigators and prosecutors are trained to 
work backward through the chain of victim systems to locate the 
criminal at the source. They are also trained to work forward 
to identify other victims and to ascertain the full scope of 
the crime.
    While we are at the early stages of our preparations to 
address this type of terrorist attack, much progress has been 
made in a short time, and we are committed to the expeditious 
continuation of this effort.
    One aspect of this effort is to overcome the lack of up-to-
date tools in the arsenal of the Federal Government, and to 
identify equipment that is necessary. In addition, Federal 
personnel sometimes lack the appropriate training and expertise 
in the cyber area to effectively interact with the private 
sector and to draw on its expertise.
    It is critical that we reach out to industry and academia 
to identify areas in which we can be effective partners. I am 
committed to such a process, and the FBI, using the resources 
that you provided in fiscal year 1998 is undertaking such an 
effort.
    We will be working with industry to enhance the skill of 
our employees, and to seek their advice on the latest state-of-
the-art equipment and other tools necessary to meet our 
counterterrorism responsibilities. Although we have not yet 
reached a final conclusion, I think that we may need to develop 
an approach that would permit the Federal Government to 
accelerate the normal procurement procedures, and quickly 
identify and deploy new technology in order to thwart terrorist 
threats.
    These procedures would be used not only to buy new tools, 
but also, in some instances, to borrow tools or enter into 
effective partnerships with both academia and the industries as 
a way to address potential terrorist threats.
    As part of our work with you to develop the 5-year 
counterterrorism strategic plan, we will be presenting 
proposals to you on how we can rapidly address these new 
issues. A major approach will be the establishment of 
partnerships with industry. Further, we anticipate establishing 
a mechanism for sharing the benefits of this overall effort, 
including the most recently developed technology and training 
with our State and local partners. You and I have talked about 
that issue, both with respect to forensic labs around this 
country, and with respect to these complex, expensive forensic 
tools. And I think we need to develop means of, regionally and 
on a State and local basis, sharing these tools so we do not 
have to spend a lot of money and duplicate each other's 
efforts.


                        overseas terrorist acts


    Turning to terrorist acts overseas, during the past two 
decades, U.S. Government facilities in other countries, and 
Americans traveling outside the United States have been the 
target of choice for international terrorists. U.S. policy for 
responding to such acts combines diplomatic, intelligence, 
military, and criminal justice resources. The objective of that 
policy is to deter, defeat, and respond vigorously to all acts 
of international terrorism against U.S. interests.
    It is a critical part of that policy that we apprehend and 
prosecute those who plan or perpetrate such attacks. It is not 
unusual for these investigations and the apprehension and 
rendition of defendants for trial in the United States to take 
years to complete. However, in our commitment to the effort, 
our effort is absolutely steadfast. Our memory is very, very 
long.
    With deference to the committee's time this morning, I 
would refer you to my written statement for a full description 
of how we have responded in these instances. Much progress has 
been made during the past few years in preparing the United 
States to prevent acts of terrorism and to respond to the 
terrorist threats that do arise.

                           prepared statement

    However, many challenges remain, including particularly 
those relating to the weapons of mass destruction and the 
cyberterrorism threat. Through the process of developing the 5-
year counterterrorism and technology plan we will continue to 
address an interagency response to these challenges, and to 
work with the committee in this effort.
    Thank you.
    [The statement follows:]
                    Prepared Statement of Janet Reno
                              introduction
    It is my privilege to appear before you today for the purpose of 
continuing the Department of Justice's discussions with you on our 
efforts to combat the scourge of terrorism.
    When I testified before the Senate Appropriations Committee last 
September, I outlined the Government's policy in dealing with acts of 
terrorism, the government's strategies to deter and prevent terrorist 
acts, and the government's abilities to respond quickly and decisively 
to terrorist acts. I also addressed our growing capabilities to detect, 
prevent, defeat, and manage the consequences of nuclear, biological, 
and chemical material and weapons used by terrorists. I would like to 
use this opportunity today to highlight for you our progress in these 
areas. I would also like to address the challenges posed by our growing 
interdependence of critical infrastructures and the Department's 
response to the report and recommendations of the Presidential 
Commission on Critical Infrastructure Protection in October 1997. In 
particular, I will address the Department of Justice's creation of the 
National Infrastructure Protection Center (NIPC) within the Federal 
Bureau of Investigation. Finally, I would like to focus my testimony on 
the processes of interagency cooperation and consultation that we draw 
upon when we have to respond to and investigate terrorist incidents in 
the United States and abroad. These processes are increasingly 
indispensable to our efforts to confront the challenges posed by 
cyberterrorism, weapons of mass destruction, and protection of critical 
infrastructures against terrorist threats.
    Mr. Chairman, you and this subcommittee have provided outstanding 
leadership focus on improving the processes for interagency cooperation 
and consultation in counterterrorism activities and on enhancing the 
technological capabilities of all entities with counterterrorism 
missions. The Conference Committee Report accompanying the 1998 
Department of Justice Appropriations Act directs the Attorney General 
to develop a 5-year interdepartmental counterterrorism and technology 
crime plan to serve as a baseline strategy for coordination of national 
policy and operational capabilities to combat terrorism. The plan is to 
be representative of all agencies involved in the government's 
counterterrorism effort and to draw upon the expertise of academia, the 
private sector, and state and local law enforcement. The final plan 
must be submitted by December 31, 1998, and updated annually 
thereafter. In close cooperation with my colleagues across the 
government, I intend to devote the full resources of the Department of 
Justice to developing and implementing this plan. Accordingly, I have 
established an interagency resource and review group, composed of 
representatives of key federal agencies with counterterrorism 
responsibilities. Efforts are now underway to collect information and 
insights from them concerning their current and proposed programs and 
recommendations for action that need to be taken during the next five 
years to improve the counterterrorism capabilities of the United 
States.
    You are correct in the assessment, Mr. Chairman, that for the 
Federal Government to carry out its counterterrorism efforts, we must 
develop and sustain effective partnerships not only with state and 
local law enforcement but also with industry, including the national 
laboratories, and academia as well. The threat, particularly in the 
area of cybercrime, requires expertise and equipment often difficult 
for the Federal Government to acquire through normal processes. We must 
develop flexible mechanisms that will allow us to engage in effective 
partnerships with industry and academia as well as enhance Federal 
resources in this area.
    One of the criticisms that I have heard from experts in this area 
is that often the Federal Government does not have up-to-date tools and 
equipment within its own inventories. In addition, Federal personnel in 
some cases do not have appropriate training and expertise in the cyber 
area in order to effectively interact with the private sector and draw 
upon its expertise. You very ably pointed out during last year's 
hearing that we need to reach out to industry and academia to identify 
areas in which we can be effective partners. I am committed to such a 
process and have directed the FBI, using the resources that you 
provided in the fiscal year 1998 appropriation, to undertake such an 
effort. We will be working with industry to enhance the skills of our 
employees and to seek their advice on the latest state-of-the-art 
equipment and other tools necessary to meet our counterterrorism 
responsibilities.
    The Congress has been generous in providing the Department 
additional resources, but I believe in the future we also will have to 
think outside of the normal Federal Government processes. Too often, 
the normal processes did not allow us to react to significant 
technological changes that impact our mission at the same pace at which 
the changes occur.
    Although we have not come to a conclusion on this, Mr. Chairman, I 
think that we may need something along the lines of a Counterterrorism 
Technology Rapid Response mechanism. Such an approach would allow the 
Federal Government to accelerate the normal procurement procedures and 
quickly identify and deploy new technology in order to thwart terrorist 
threats. I am not saying these resources would only be used to buy new 
tools; they would in some cases allow us to borrow tools from or enter 
into effective partnerships with both academia and industry as a way to 
address potential terrorist threats. As part of our work with you to 
develop the Administration's five-year counterterrorism strategic plan, 
we will be presenting proposals to you on how we can rapidly address 
new threats. A major approach will be the establishment of partnerships 
with industry.
    However, in the meantime, I think it is important that we focus on 
the resources that you have provided to us in fiscal year 1998 as well 
as those resources we have requested as part of the 1999 budget. I have 
asked Director Freeh to reach out to the appropriate experts in 
industry and academia to review with them our plans to acquire new 
tools to combat terrorism. We need to assure ourselves, the Congress, 
and the American people that we are acquiring the best available in 
this area. I will keep you apprised of our progress.
    Not only do we need to acquire new technology in order to thwart 
terrorism, but we need to ensure that we have a federal workforce that 
can effectively deal with our new partners in industry and academia. 
One concern that has been brought to my attention is that often the 
federal government is not sufficiently grounded in the new technologies 
in order to be an effective partner with industry and academia. Using 
the statutory flexibility that you have given to us in the fiscal year 
1998 appropriation, we are committed to developing a personnel process 
that will allow us to retain employees that can be effective partners 
with industry and academia in dealing with new emerging technologies. 
We also need to focus on how we provide continual training in these 
technologies to the federal workforce. Given the fact that new 
technologies appear to be deployed every 18 months, we must ensure that 
our workforce can keep abreast with the new developments.
    I have also asked the FBI to establish a mechanism for sharing the 
benefits of this overall effort, including the most recently developed 
technology and training, with our state and local partners.
    Let me emphasize again that the protection of our nation and its 
people from acts of domestic and international terrorism is among the 
greatest challenges faced by this Administration and one of the highest 
priorities of the Department of Justice. Over the past two decades, it 
has become clear that American citizens and interests may be the 
targets of terrorists.
    Whatever the origin or misguided motivation of the particular 
terrorist or terrorist group, the potential consequences of a single 
terrorist incident can be enormous. For example, the magnitude of human 
suffering flowing from acts of terrorism such as the bombing of Pan Am 
Flight 103 is incalculable.
    Events such as the World Trade Center bombing in New York City and 
the bombing of the Murrah Federal Building in Oklahoma City, pointedly 
demonstrated that acts of terrorism are not confined to foreign lands. 
Here at home, citizens going about their daily work, and even children 
entrusted to day care, may also be struck down without reason or 
warning.
    The challenge that terrorism presents to a free society is that we 
must aggressively act to prevent and respond to such acts, using all 
the tools and techniques at our disposal, while still fully respecting 
the individual rights and liberties for which this nation stands. 
Striking this balance, we have made much progress in the past several 
years, successfully preventing a number of potentially deadly terrorist 
attacks at home and abroad while enforcing and strengthening the rule 
of law. We have demonstrated that our commitment is unflagging and our 
memory is long. But much work remains to be done.
    The policy of our government in dealing with acts of terrorism, 
both at home and abroad, remains unchanged. We will do everything 
possible to deter and prevent terrorist attacks. When acts of terrorism 
do occur, we will respond quickly and decisively, with the full array 
of options that we have available. We will work with our friends 
throughout the world to interdict terrorists and ensure terrorist acts 
do not go unpunished. The strategic plan we are presently developing 
will provide a roadmap for the further refinement and implementation of 
this policy over the next five years.
    Since I last testified on this subject before this Subcommittee, 
the President's Commission on Critical Infrastructure Protection 
(PCCIP) has submitted its report to the President. The PCCIP report 
properly emphasizes the vulnerability of each of our major 
infrastructures to willful misconduct, including terrorism. Terrorists 
can damage or destroy elements of our infrastructures either by 
physically attacking them, or by launching cyber-based attacks aimed at 
disrupting the physical infrastructures' computer and communications 
systems. As we develop and position our resources to cope with these 
new threats, we must also remain vigilant against more traditional 
terrorist threats.
                     nature of the terrorist threat
    Terrorist threats are both old and new. The heart-wrenching 
pictures of the nose section of the 747 that was Pan Am 103 in a field 
near Lockerbie, Scotland, or the half-standing building in Oklahoma 
City, remind us of long-used terrorist weapons: bombs. But newer 
threats abound. Chemical and biological weapons are now a potential 
part of the terrorists' arsenal, as made clear by the use of Sarin gas 
in the Japanese subway system. And software code may yet become another 
terrorist weapon. Indeed, seven years ago, the National Research 
Council predicted that ``Tomorrow's terrorist may be able to do more 
damage with a keyboard than with a bomb.''
    So what is the nature of the terrorist threat? It comes in three 
primary forms: conventional weapons (including incendiary devices), 
weapons of mass destruction, and cyberattacks.
Conventional Weapons
    The bombings of the World Trade Center and the Murrah Federal 
Building are recent examples of the physical security vulnerabilities 
inherent in an open society. Such physical attacks could take on even 
more serious dimensions, however, if the bomb were placed at a 
carefully selected critical infrastructure facility. In addition to the 
death or destruction caused directly by the bomb, an explosion caused 
by a terrorist act could potentially destroy or disable elements of a 
specific infrastructure on a regional or national scale and could cause 
harm and possibly injury or loss of life to a significant portion of 
our population dependent upon that critical infrastructure.
Weapons Of Mass Destruction
    As nuclear, chemical or biological weapons of mass destruction 
become more accessible, we face the potential of even more catastrophic 
acts of terrorism. In particular, chemical or biological weapons are 
relatively inexpensive to produce but have the capability of causing 
widespread death if released on an unsuspecting populace. The nerve gas 
attack in the Tokyo subway by members of the Aum Shinrikyo cult was a 
grim warning of this potential.
    Further, as the United States and the former Soviet Bloc members 
proceed to dismantle their nuclear weapons, the potential exists that 
weapons-grade nuclear materials may fall into the hands of a terrorist 
group or a rogue political organization bent upon nuclear blackmail. 
Although our nation has not yet experienced such a threat, we must 
anticipate, plan and prepare for such an occurrence as we and former 
Soviet Bloc nations continue disarmament.
Cyberattacks
    As we become increasingly reliant on the Global Information 
Infrastructure (GII), our information systems present an ever more 
attractive target for terrorists. At the same time, because the GII is 
itself a vast array of distinct networks with complex 
interrelationships and dependencies that are not yet fully understood, 
defining the vulnerabilities remains difficult. For example, a 
cyberattack on a telecommunications network may affect not just private 
communications, but transportation systems, banking systems, and the 
availability of critical government services, such as police and fire 
fighting.
    By way of example, many energy facilities use Supervisory Control 
and Data Acquisition (SCADA) systems. SCADA systems control a variety 
of energy facility components, such as electric power plants and oil 
and gas pipelines. As SCADA systems become more widespread and more 
interconnected, terrorists have increased opportunities to use publicly 
available as well as covertly obtained cyber techniques to damage 
critical energy infrastructures. More specifically, a large number of 
SCADA systems have simple dial-up access for remote maintenance which 
allows problems to be handled quickly by a computer engineer but also 
may make the system more vulnerable to cyber attack. Additionally, many 
SCADA systems use commercial off-the-shelf hardware and software with 
vulnerabilities known to individuals outside the energy industry. Other 
SCADA systems are connected to corporate computer networks with 
indirect connections to the Internet. As a result, many energy 
operating systems that were previously unknown or inaccessible to 
outside parties are now subject to possible cyber attack. An attack on 
a SCADA system would be potentially devastating because it could affect 
not only the energy industry, but other critical infrastructures 
elements of which depend on the affected energy facilities.
    Through the 5-year strategic plan we are currently developing in 
close coordination with other departments and agencies, we will outline 
how the federal government, in coordination with state and local 
authorities and the private sector, can improve its capabilities to 
prevent and deter all of these threats.
    Moreover, the continuing development of technology itself is posing 
challenges to law enforcement's ability to keep pace with terrorists 
and others who seek to do harm to our nation and our nation's citizens 
using either conventional weapons, weapons of mass destruction, or 
cyberattack tools. For example, the widespread use of strong encryption 
by terrorists and other criminals, unless it provides for lawful access 
to plaintext by law enforcement authorities, would have catastrophic 
implications for our ability to detect, prevent, and investigate crime 
and terrorism. Unbreakable encryption allows terrorists to communicate 
about their criminal plans with impunity and to maintain electronically 
stored evidence of their crimes and records necessary to conduct their 
criminal operations immune from lawful search and seizure. Developing a 
balanced approach to robust encryption is an extremely serious public 
policy issue that requires attention and engagement by federal, state, 
and local government officials and by the people and businesses whose 
public safety law enforcement officers have sworn oaths to protect. To 
this end, the Administration has launched a focused initiative to work 
closely with the information technology industry to develop technical 
and policy solutions that represent balanced approaches to strong 
encryption. We have requested a legislative moratorium on encryption 
matters while we attempt to develop these solutions.
    There can be no question that the policy issue of encryption 
urgently needs to be resolved. As noted, our counterterrorism mission 
will encounter serious difficulties if we are unable to obtain access 
to the plaintext of data and communications when lawfully authorized. 
Moreover, unless we achieve a balanced resolution of the issues 
presented by encryption, the private sector will only reluctantly, if 
at all, enter into the full spectrum of information, people, and 
technology partnerships with the government that are needed in order to 
prevent, deter, and effectively respond to terrorism. It is therefore 
vital that in the next several weeks, we in the government and our 
private sector partners pursue solutions that both address the 
immediate issue of encryption and also build up the trust and 
collaboration that are needed if we are to make progress on all 
counterterrorism fronts.
   organization of the federal government to prevent and respond to 
                               terrorism
    In my appearances before the Senate Appropriations Committee last 
May and before this Subcommittee in September 1996, I described the 
Administration's strategies for preventing, responding to, and 
prosecuting terrorist activities against United States citizens and 
interests. Today I'd like to focus on a related subject, one which is 
complementary and equally important--the question of how the federal 
government has organized its resources and its decision-making 
processes to respond to terrorist events. My focus will be on how the 
departments and agencies of the federal government, together with state 
and local authorities, are increasingly working together to implement 
and advance the Administration's counter-terrorism strategies. These 
interagency mechanisms and resources to address terrorist threats are 
the baseline from which we will be developing the five-year strategic 
plan to further enhance our existing processes. Even today, the close 
interaction among agencies produces insights and strengths that no 
agency acting alone would have. To be frank, however, the close 
partnerships that Cabinet-level departments and other agencies have 
necessarily entered into also produces, on occasion, tensions arising 
from the organizations' differing statutory missions, authorities, 
restrictions, and perspectives that we all need to work through 
together.
    I would like first to talk about intelligence production and the 
mechanisms for senior level coordination in the event of a terrorist 
incident, and then I will address how we respond to international and 
domestic terrorist incidents in turn.
Intelligence Collection and Assessment
    Of course, our primary objective is to prevent terrorist acts 
before they occur. Intelligence is the lifeblood of prevention since it 
provides the United States with timely information about the identity, 
motives, movements, plans, resources, and possible allies of the 
perpetrators. The CIA is responsible for the collection, analysis and 
dissemination of foreign intelligence regarding terrorist groups. Its 
efforts are coordinated by its Counterterrorist Center (CTC). The 
Department of Defense, similarly, engages in the collection, analysis 
and dissemination of foreign intelligence that relates to the mission 
and security of U.S. Forces abroad. Where such information concerns a 
possible attack upon United States interests here or abroad, it is 
furnished to the FBI which uses it either to assist in the development 
of an on-going investigation or to open a new one. In either event, the 
FBI disseminates the information to the responsible field office.
    The FBI collects, analyzes, and disseminates intelligence on the 
activities of international terrorists targeting interests within the 
United States and terrorist groups operating in this country. This 
information is used to disseminate early warnings to targets of 
terrorist activity, and, when there is sufficient basis, to open 
investigations of individuals or organizations who are planning or 
preparing to commit terrorist acts.
Senior Level Interagency Coordination
    Information concerning the possibility of an imminent terrorist 
attack may be developed by any one of a variety of federal agencies, 
including the FBI, CIA, DOD, and the State Department. Where credible 
information is developed, the government has specific procedures to 
facilitate a prompt, coordinated interagency response.
    If the threat involves either a potential act of terrorism against 
U.S. interests overseas or an international terrorist act within the 
United States, coordination of issues requiring interagency review is 
handled through the Coordinating Sub-Group (CSG) of the Deputies 
Committee. The Deputy secretaries and equivalents of the Cabinet 
agencies comprise the Deputies Committee; its purpose is to increase 
interagency coordination, cooperation and decisionmaking at the chief 
operating officer level and to provide coordinated advice and views to 
the Cabinet secretaries and their equivalents and to the President. The 
agency coming into possession of the information immediately notifies 
the office of the NSC official who chairs the CSG, which has the 
capability of convening an emergency meeting of that group, via 
teleconference, in a matter of minutes. For potential acts of terrorism 
within the United States that are not of an international nature, the 
same expeditious coordination mechanism is available, except that the 
Department of Justice, through the FBI, is the organization which 
convenes and chairs the meeting.
    The regular CSG members include the State Department, Defense 
Department, CIA, FBI, and Department of Justice. The CSG is also able 
to notify and involve its established points of contact in a variety of 
other federal agencies when the circumstances of the particular 
terrorist threat warrant the inclusion of one or more of those 
agencies. They include the Departments of Energy, Transportation, 
Treasury, Health and Human Services, Agriculture, as well as FEMA, EPA, 
and the NRC. For example, for a threatened terrorist act involving a 
chemical weapon, the CSG meeting would include, in addition to the 
regular components, representatives from the Public Health Service of 
the Department of Health and Human Services, the EPA, and FEMA.
    Among the actions which the CSG can recommend to the Deputies 
Committee is deployment of either a Foreign Emergency Support Team 
(FEST) or a Domestic Emergency Support Team (DEST). Specialized modules 
of these teams can be called on as needed to address chemical, nuclear, 
and biological threats or acts of terrorism. Once activated, a FEST or 
DEST team can quickly assemble its components at the incident area 
within a few hours. Once on site, the FEST or DEST team is available to 
provide expert, highly specialized advice and guidance concerning the 
most appropriate response to the terrorist threat or incident. This on-
site information, in turn, provides an informed basis for further 
decision making concerning the deployment of additional federal 
resources.
    Interagency response capabilities are exercised, through either 
tabletop or field training exercises, to facilitate coordinated 
interaction.
Responding to Domestic Incidents
            Crisis Deployment Strategy
    Presidential Decision Directive 39, known as ``PDD-39'', sets forth 
lead agency responsibilities for combatting terrorism, including 
responding to terrorist incidents. The Department of Justice, and in 
particular the FBI, has lead responsibility for responding to terrorist 
threats and incidents occurring within the United States. As described 
in PDD-39, the federal response to terrorism includes two components, 
crisis management (led by the FBI) and consequence management (led by 
FEMA, in support of State and local government). Crisis management 
includes measures to identify, acquire, and plan the use of resources 
needed to anticipate, prevent, and resolve a threat or act of 
terrorism. It is primarily a law enforcement response. Consequence 
management includes measures to protect public health and safety, 
restore essential government services, and provide emergency relief to 
governments, businesses, and individuals affected by the consequences 
of an act of terrorism.
    The Department has drafted ``Guidelines for the Mobilization 
Deployment and Employment of U.S. Government Agencies In response to a 
Domestic Threat or Incident In Accordance With PDD-39.'' These 
Guidelines, which have not been fully approved yet but are in the final 
stages of interagency coordination, are also known as the ``Domestic 
Guidelines''; they serve as coordinating measures within the framework 
of PDD-39 and are designed to enhance the capability of the U.S. 
Government to respond to terrorism. The Domestic Guidelines also were 
formulated to facilitate interagency coordination in support of the 
FBI's lead role in combating domestic terrorism, to delineate command 
responsibilities, and to address the use of the Domestic Emergency 
Support Team (DEST) and the Joint Operations Center (JOC). 
Additionally, the Domestic Guidelines:
  --detail the roles and responsibilities of federal agencies in 
        responding to a terrorist incident, including one involving a 
        weapon of mass destruction (WMD). These include those of the 
        On-Scene Commander and DEST Team Leader, DEST training and 
        exercise programs, formation and structure of the DEST and JOC, 
        and interagency responsibilities during WMD incidents.
  --detail the roles and responsibilities of federal agencies in 
        responding to a terrorism incident, including one involving 
        nuclear, chemical or biological weapons of mass destruction;
  --define the circumstances under which military resources can, 
        consistent with federal law, be used for technical assistance 
        or law enforcement support, detail the procedures for seeking 
        such assets, and delineate the interrelation between military 
        forces and the FBI. Under those procedures, the FBI on-scene 
        commander will make an assessment whether military, technical 
        or law enforcement assistance is necessary to address the 
        crisis. His or her recommendation will be transmitted to the 
        Attorney General who will, in turn, consult with the Secretary 
        of Defense to determine whether the statutory prerequisites for 
        such support are satisfied. In some instances, the President 
        must also be consulted and he may be required by statute to 
        issue findings and a Proclamation to disperse before military 
        authorities can be employed for law enforcement purposes.
    Let me briefly outline how components of the FBI's domestic 
terrorism apparatus will work and interrelate in the event of a 
terrorist crisis. Upon receipt of information concerning a credible 
threat, the FBI`s Assistant Director for National Security will 
activate the Strategic and Information Operations Center (SIOC). The 
SIOC is staffed 24 hours a day and is used by FBI headquarters units as 
a command post to direct special operations or respond to terrorist 
incidents. The FBI Counterterrorism Center (CTC) includes 
representatives of eighteen federal agencies, including DOE, DOD, FEMA, 
Customs, Secret Service, and INS. The CTC, which was established in 
1995, brings the resources and expertise of these eighteen agencies 
together, promotes communication of information among agencies, and 
helps to coordinate the response of the entire U.S. law enforcement 
community to terrorism. These agencies would be requested, when 
appropriate, to send a representative to the SIOC. That official would 
act as a liaison in coordinating needed support from parent federal 
agencies in responding to the crisis.
    At the same time, the Domestic Emergency Support Team (DEST), a 
rapidly deployable interagency team of specialized advisors from 
several government agencies, including the Departments of Defense, 
Energy, and Health and Human Services, EPA, and FEMA, would be on call 
to provide assessment and expert technical advice to the FBI on-scene 
commander. Upon his or her request, and the concurrence of the Attorney 
General and the FBI Director, a task-organized element of the DEST 
would be deployed to the scene of the crisis for that purpose. In 
addition to its advice and assistance coordination role, the DEST would 
also ensure that decisionmakers, including those located in the SIOC, 
receive critical information on a timely basis and that the DEST 
agencies coordinate their on-scene operations in a manner that supports 
the commander's needs.
    Finally, the FBI's Critical Incident Response Group (CIRG), which 
is headquartered at Quantico, Virginia, would coordinate support, as 
necessary, of several specialized FBI components. These include the 
Hostage Rescue Team, and Crisis Management Unit.
    It is also important to understand that other law enforcement 
agencies play a significant role, not only in assisting the FBI as lead 
federal agency, but in supporting the state and local emergency 
responders. The Director of the FBI and I fully recognize that no 
single agency can tackle acts of terrorism--especially one involving a 
WMD--alone. Thus, our approach must be a unified one, bringing the 
expertise of the entire federal government to the front door of the 
state or municipality as needed. Improving the processes by which 
federal resources are made available to state and local authorities is 
one of the objectives of the five-year counterterrorism plan.
    Among the groups of federal law enforcement authorities who play 
important roles in the battle against domestic terrorism are the 
Immigration Service, Customs Service, Border Patrol and Coast Guard. 
These agencies share the mission of protecting our borders, including 
the coastline, from foreign terrorists, weapons and other 
instrumentalities of potential use to terrorists. Their roles are 
crucial, for example, if intelligence sources indicate that a terrorist 
threat is presented by the clandestine importation of a WMD into the 
United States for use against a domestic target.
    In cases involving arson or use of firearms or explosives, the FBI 
and the Treasury Department's Bureau of Alcohol, Tobacco and Firearms 
(ATF) have overlapping investigative responsibilities. When 
investigating violations which do not, at the outset, plainly fall 
within the investigative jurisdiction of one agency or the other, both 
participate in the effort. This joint approach includes coordination at 
both the headquarters and field levels until primary investigative 
jurisdiction is clearly established. The two agencies have established 
a working group to address areas of mutual concern. Topics considered 
by the group include investigative jurisdiction and protocols, crime 
scene and laboratory procedures, and training. In addition, the FBI and 
ATF have conducted a joint conference with the Special Agents in charge 
of FBI and ATF field offices to further develop a mutual working 
understanding. The FBI and ATF are also reviewing the current 
Memorandum of Understanding on bombing investigations in light of 
recent legislation which affects those investigations. Finally, ATF 
agents are present in the FBI Joint Terrorism Task Forces throughout 
the country and ATF has detailed an agent to the FBI's Counterterrorism 
Center.
    Beginning in January 1996, the FBI developed two new units to 
address weapons of mass destruction (WMD) matters. Today, these units 
are comprised of nearly 40 employees, eight of whom are detailees from 
other federal agencies. The WMD Operations Unit (WMDOU) is the 
operational entity for all threats, threat assessments and domestic WMD 
incidents. It conducts WMD crisis planning and will coordinate the 
national response if state and local authorities require federal 
support during a crisis. A WMD Countermeasures Unit (WMDCU) was also 
established to coordinate the training of state and local first 
responders in support of the Domestic Preparedness Program. 
Additionally, it coordinates the preparation and planning of all WMD 
exercises within the Bureau in concert with CIRG. To deal with WMD 
crises, the FBI maintains an all-hour, full-time capability to conduct 
assessments of any threat involving such weapons. The FBI frequently 
receives information indicating an individual or group is professing an 
intent to use WMD materials. Upon receipt of such information, a 
preliminary assessment is made to determine if enough credible 
intelligence exists to warrant an interagency response. In such cases, 
an alert notification procedure is implemented to provide the threat 
information to all entities involved in the assessment process. The 
threat is evaluated by an assessment team which is tailored according 
to the threat; it may draw from expertise available at a number of 
federal agencies outside of the FBI, including the Department of 
Defense, the Department of Energy, the Department of Health and Human 
Services, the Environmental Protection Agency, and others.
    When performed, the WMD threat assessment determines credibility of 
the threat from three points of view: technical feasibility, 
operational practicality, and behavioral resolve. Technical feasibility 
includes the capacity to obtain or produce the WMD material claimed; 
operational practicality refers to the feasibility of carrying out the 
threatened mode of deployment; and behavioral resolve addresses the 
psychological assessment of the likelihood of carrying out the threat. 
Using these three criteria, members of the team prepare an aggregate 
assessment of the credibility of the threat.
    That information is then furnished to the appropriate FBI field 
office. At this point, further actions may be deemed necessary, to 
include initiating the deployment of assets to the affected location. 
The level of response may range from sending members of the FBI's 
Hazardous Materials Response Unit (HMRU) to help integrate scientific 
and technical responses and to retrieve evidence for further analysis, 
to a full scale deployment including the DEST and other assets to 
assist in detection and mitigation. The establishment of a Joint 
Operations Center (JOC) may also be deemed necessary to coordinate 
activities between the federal, state, and local agencies involved in 
responding to the incident. Members of all such agencies are involved 
in the operation of the JOC. If no immediate threat to public safety 
exists, normal investigative avenues are pursued to determine the 
identity and motivations of the subjects and, where warranted, to 
apprehend them.
    The complexity of a threatened or consummated WMD incident requires 
that the FBI rely heavily upon the expertise of other federal agencies 
to assist in the resolution of the crisis through a specially 
configured DEST. In particular, the armed forces possess unique 
capabilities to locate, evaluate, isolate, disarm and dispose of WMD 
devices, capabilities which can be placed at the FBI's disposal upon 
compliance with statutory requirements. HHS has responsibility for 
providing technical advice and assistance such as threat assessment, 
identification of contaminants, and public health guidance. EPA shares 
these responsibilities and, in addition, provides advice on 
decontamination. Finally, FEMA is responsible for coordination of 
federal consequence management response in support of state and local 
governments.
            Prosecution of Terrorists
    The prevention of terrorism also requires that we have the capacity 
to bring to justice those who are planning to or have committed a 
terrorist act. While we unfortunately may not be able to prevent all 
terrorist acts, we will vigorously investigate and prosecute terrorism 
cases. If an act of domestic terrorism occurs, federal prosecutors 
become involved with the FBI, as well as state and local law 
enforcement authorities, in an around-the-clock effort to develop 
evidence and to identify and apprehend those responsible. We have 
created an Attorneys Critical Incident Response Group, or ACIRG, 
composed of expert federal lawyers here in Washington and around the 
country, whose job it is to provide the Department's leadership with an 
improved capacity to manage the incident and, on occasion, support the 
United States Attorney in the on-scene response to the crisis. The 
ACIRG concept is flexible in nature; it contemplates the formation of 
task-tailored teams to fit the particular crisis. In some instances, 
the teams will involve monitoring events and periodic updates to senior 
Department officials. In others, the teams will provide a full-time 
presence at the FBI's SIOC to provide on-the-spot legal advice. 
Finally, where the crisis is a particularly grave one, team members 
will deploy to the field to provide expert advice to the local U.S. 
Attorney, coordinate multi-district matters and, in very rare cases, 
assume on-site responsibility.
    During such exigencies, the Criminal Division's Terrorism and 
Violent Crime Section (TVCS), some of whose members are part of the 
ACIRG, will augment its legal advice and liaison functions as needed. 
To ensure preparation for their roles in a domestic terrorism crisis, 
TVCS has developed and conducted training for designated ACIRG members 
and the Assistant U.S. Attorneys selected to interact with them. In 
addition, as part of the Attorney General's ``critical incident 
response plan,'' each U.S. Attorney's office has been tasked to develop 
a crisis response plan that includes a scheme for coordination with 
local, state and federal responders.
    Through aggressive investigative techniques, and the subsequent 
prosecution of those who commit terrorist acts, the government seeks to 
incapacitate the perpetrators from further acts and deter others who 
would emulate them.
    The rapid arrests and subsequent convictions of those involved in 
the World Trade Center bombing were the direct result of the effective 
cooperation of federal, state and local law enforcement agents working 
closely with assigned prosecutors. The conviction and death sentence of 
Timothy McVeigh for the Murrah Federal Building bombing, following a 
meticulous investigation and exemplary executed prosecution, will 
surely send an unmistakable message to others who might contemplate 
committing similar acts of terrorism.
            Consequence Management
    PDD-39 designates the Federal Emergency Management Agency (FEMA) as 
the lead agency for coordinating the consequence management of acts of 
terrorism, including the use of weapons of mass destruction incidents. 
During a terrorism crisis, FEMA acts in support of the FBI until the 
Attorney General is satisfied that addressing the consequences of the 
act should assume primacy over dealing with the immediate crisis 
situation. The domestic ``Guidelines'' address the procedures for the 
transfer of such responsibility.
    When the Attorney General approves the decision to transfer the 
federal lead agency role from the FBI to FEMA, FEMA's designated 
Federal Coordinating Officer (FCO) will coordinate federal actions in 
support of state and local governments to provide effective consequence 
management appropriate to the incident. FEMA policy provides that, in 
fulfilling this role, it will employ the established structure of the 
Federal Response Plan (FRP). The FRP defines the relationships and 
roles of 28 federal departments and agencies and the American Red Cross 
in the consequence management of any disaster or emergency in which 
FEMA is called to respond.
Responding to international terrorism
    Under PDD-39, the State Department serves as the lead agency for 
coordinating the U.S. response for acts of terrorism that take place 
outside of U.S. territory and within the jurisdiction of another 
nation. When a terrorist incident abroad occurs, the State Department 
acts as the on-scene coordinator for the U.S. Government. In response 
to a terrorist incident abroad, as I noted earlier, a Foreign Emergency 
Support Team (FEST) can be deployed when U.S. interests are threatened. 
The FEST consists of representatives of State, DOD, and the FBI. The 
purpose of the FEST is to provide the Chief of Mission, host government 
leaders, and incident managers guidance concerning U.S. capabilities in 
resolving incidents or crisis situations posing a serious and immediate 
threat to U.S. interests.
    When the decision is made to deploy the FEST, which is led by a 
member of the State Department's Office of the Coordinator for 
Counterterrorism, a decision is also made concerning the composition of 
the team and the possible need for additional support from other U.S. 
government agencies, including the Department of Energy, Department of 
Transportation, and the Public Health Service. The FBI provides support 
to the FEST concerning U.S. law enforcement capabilities, crisis 
management assistance, contingency planning, hostage negotiations, 
evidence collection and guidance about U.S. extraterritorial 
jurisdiction. It is important to understand, however, that FBI FEST 
members are not, themselves, part of the investigative team that may be 
called upon to investigate an extraterritorial terrorism incident.
    PDD-39 also assigns to the Federal Aviation Administration (FAA) 
primacy in dealing with terrorist acts involving air piracy. FAA has 
lead responsibility for the coordination of any law enforcement 
activity affecting the safety of persons aboard an aircraft within the 
special aircraft jurisdiction of the United States.
            Developing a Criminal Case
    As is the case with domestic incidents, whenever an act of 
international terrorism that violates federal law is committed, the FBI 
initiates a criminal investigation. In such cases, as the lead crisis 
management agency, the State Department seeks for the FBI the broadest 
possible access to the crime scene and foreign witnesses. The 
Department of Justice supports the Bureau's efforts to obtain access to 
evidence and witnesses through the use of Mutual Legal Assistance 
Treaty (MLAT) requests and, where required, letters rogatory. 
Additionally, where evidence or witnesses are located within the United 
States, the Department of Justice may convene grand jury proceedings to 
facilitate the investigation. As cases become prosecutable through the 
development of sufficient evidence and legal theories, Department of 
Justice prosecutors file a complaint or seek an indictment, and obtain 
arrest warrants. The arrest warrants may be sealed when necessary to 
facilitate apprehension of the defendants.
    Once an arrest warrant is obtained, the U.S. works with the 
diplomatic, law enforcement and intelligence communities of foreign 
governments to locate the defendants, to effect their arrests and, 
whenever possible, to prosecute them in the United States.
    As one illustration of our unrelenting commitment in undertaking 
these measures, in 1993 the FBI apprehended Omar Ali Rezaq in Africa 
and brought him to the United States to stand trial for aircraft piracy 
as the result of his participation in the hijacking in Southern Europe 
of an Air Egypt flight in November 1985 and the murder of one U.S. and 
one Israeli passenger. Rezaq was convicted in 1996 and sentenced to a 
life term. Similarly, in September 1996, the United States obtained 
custody of Tsutomu Shirosaki in Asia on charges emanating from his 
October 14, 1986, explosives attack on the U.S. Embassy in Jakarta, 
Indonesia. He was convicted in November 1997, and received a 30 year 
sentence.
    International cooperation is particularly necessary when terrorists 
commit cyberattacks and other crimes through computer-based 
technologies. In cybercases, many incidents must be investigated in 
real-time because electronic trails may disappear once a hacker 
disconnects from the system or network that he is attacking. For this 
reason, the United States proposed creating, through the Group of Eight 
Nations, a Subgroup on High-Tech Crime, which has been examining ways 
to ensure that transnational cybercrimes can be swiftly investigated. 
As part of the Eight process, the Justice and Interior Ministers of the 
Eight met in December 1997 and adopted a ten-point Action Plan leading 
each country to designate a 24-hour point of contact so that high-tech 
criminals can be expeditiously pursued. The Subgroup is also seeking 
ways to expedite international trap-and-trace procedures.
Critical Infrastructures
    The findings and recommendations of the President's Commission for 
Critical Infrastructure Protection, issued in October 1997, underscored 
the need to expand the nation's capabilities to respond to physical and 
cyber attacks on critical infrastructures. In particular, the PCCIP 
report focused on the need to enhance collaboration and cooperation 
between the public and private sectors to anticipate, deter, respond 
to, and investigate emerging threats to our infrastructure.
    In response to these recommendations, and in consultation with 
other agencies across the Government, we have established within the 
FBI the National Infrastructure Protection Center (NIPC). Building on 
the former Computer Investigations and Infrastructure Threat Assessment 
Center (CITAC), the NIPC is to be an interagency partnership between 
federal agencies with responsibility for the nation's critical 
infrastructures and the private owners and operators of that critical 
infrastructure.
    The NIPC's mission is to deter, prevent, assess, warn of, 
investigate, and coordinate the response to threats and unlawful acts 
targeting the critical infrastructures of the United States, including 
illegal intrusions into government and private sector computer 
networks. The NIPC will accomplish its missions by focusing its 
investigative and analytical efforts on critical infrastructures and 
technologies, and on how and by whom they are threatened and attacked. 
In addition, the Center will work with other organizations to ensure 
that federal, state and local cyber-investigators are properly trained 
and equipped. The NIPC will also evaluate, acquire and deploy computer 
equipment and cyber tools to support investigations and infrastructure 
protection efforts.
    The NIPC, along with other federal agencies, will play an important 
role in an expanded partnership between government and the private 
sector. The FBI is hiring or developing partnerships with 
representatives of private industry, including private sector Computer 
Emergency Response Teams (CERT's), and will establish direct electronic 
connectivity with private industry, CERT's, state and local law 
enforcement entities and other government agencies. While we recognize 
that all of the interests of the private sector may not be represented 
in the NIPC and that private sector infrastructure owners and operators 
have responsibility for securing their own systems, through this 
partnership, the NIPC will facilitate the development of a world-class 
computer intrusion investigative capability with state-of-the-art 
tools, technologies, and intellectual capital related to computer 
intrusions and infrastructure protection. Additionally, the NIPC will 
help plan and develop a cyber emergency response capability.
    The NIPC will be staffed by approximately 125 persons--eighty-five 
from the FBI, and approximately forty from other government agencies 
and from the private sector.
    Having described the purpose and organization of the NIPC, let me 
focus now on the roles of NIPC and the other resources of the 
government in responding in particular to the new breed of potential 
terrorist attack--that of a cyberintrusion by a terrorist.
Cyber Intrusions
    Until this point in my testimony, I have discussed our responses to 
international terrorism and domestic terrorism as largely distinct 
subjects. This is so because the roles, responsibilities, and 
interagency processes that are involved differ considerably between the 
two areas. One of the greatest challenges we face in the Department of 
Justice, and one that confronts all of the departments and agencies, is 
to determine whether a cyber intrusion is in fact an act of 
international terrorism, an act of domestic terrorism, or comes from 
some other malevolent source such as a non-terrorist criminal acting 
for illicit gain or vengeance, a hostile foreign intelligence service 
or, most seriously, a hostile state attacking the United States. In 
conventional terrorist attacks, the act often speaks for itself; the 
bombing at the World Trade Center would be classified as 
``terroristic'' no matter who the actor. But although computer commands 
and digital manipulation of our information infrastructures have become 
potential terrorist weapons, it does not follow that every computer 
intrusion is in fact a terrorist act. And properly identifying the true 
nature of an attack is all the more difficult because the current 
information infrastructure can make it difficult or impossible to 
pinpoint the source of an attack or identify sponsorship of the 
activity.
    To respond to this fluidity and uncertainty in cyberattacks, the 
FBI is creating the Computer Emergency Support Team (CEST). In the 
past, ``foreign'' attacks that at first seemed to be state-sponsored 
turned out to be U.S. hackers looping through foreign sites. It is 
therefore critically important not to make premature assumptions about 
the location or motive of the attacker. Such assumptions--that the 
attack is state-sponsored information warfare or an intelligence 
activity--have proved wrong in the past. Indeed, the only assumption 
that can safely be made at the outset of a cyberattack is that the 
attack constitutes a violation of federal law, and it must continue to 
be treated as a crime in the absence of evidence suggesting another 
motive.
    Because of the uncertain nature of cyber intrusions, the Department 
of Justice maintains close coordination and communication with the 
National Security Council. The National Security Adviser and the NSC 
staff are charged with informing and advising the President about 
potential attacks on the national security of the United States. 
Therefore, it is important for these advisers to receive the necessary 
information relevant to their responsibilities, and to participate, 
with me and the other Principals, in the ongoing consultation and 
decisionmaking process about whether and when a criminal matter has 
become an attack on our national security.
    When a matter is the subject of a criminal investigation, powerful 
investigative tools offer the ability to quickly secure evidence 
wherever located. Moreover, NIPC personnel will be highly-sensitive to 
intelligence issues, ever vigilant for the national security 
implications of an investigation. Indeed, the nature of cyberattacks 
highlights the fact that any comprehensive approach to a cybercrime 
requires a multidisciplinary and interagency approach, bringing 
together the disciplines of computer security, law enforcement, 
counterintelligence, counterterrorism and foreign intelligence. 
Clearly, the level of technical, forensic, and legal ability necessary 
to combat these threats is extremely high and very specialized.
    In responding to cyber incidents, the FBI draws heavily upon the 
skills of their Supervisory Special Agents assigned to the Computer 
Investigations and Operations section at FBI Headquarters, as well as 
teams in the other FBI offices. To deal with the complex legal issues 
raised by hacking cases, the FBI will consult with the Computer Crime 
and Intellectual Property Section (CCIPS) and those Assistant United 
States Attorneys, known as Computer and Telecommunications Coordinators 
(CTC's), who have been specially trained by CCIPS to deal with cyber 
events. Using these resources, and with the help of the Department of 
Defense and other agencies, the Department of Justice was able to 
respond quickly to the recent attacks upon numerous Department of 
Defense and other government and educational sites. As you are likely 
aware, that investigation has led investigators from California to 
Israel, with the resultant identification of the principal participants 
in the intrusions.
      improving our capability to prevent and respond to terrorism
Recent Successes
    To date, our initiatives to combat international and domestic 
terrorism have had a number of notable successes. For example, in 
addition to the recent Rezaq and Shirosaki convictions, during the past 
year, the FBI, working with other federal agencies, captured Mir Amal 
Kasi from overseas so that he could be tried in Fairfax County, 
Virginia, where he was convicted and sentenced to death for the January 
12, 1993, murders of two CIA employees.
    During the past year, federal authorities, often working closely 
with their state and local counterparts, have also thwarted at least 
eight planned bombings or other acts of terrorism by homegrown 
extremist groups. One of these involved a scheme to bomb a large 
natural gas refinery in Wise County, Texas, to divert attention from a 
planned armored car robbery.
    Additionally, on October 8, 1997, collaborative efforts of the 
Departments of Justice, State, and Treasury were an integral part of 
the process that culminated in the designation of 30 organizations as 
foreign terrorist organizations under Section 302 of the Antiterrorism 
and Effective Death Penalty Act of 1996. These designations trigger 
provisions that permit the prosecution of persons within the United 
States who knowingly furnish material support to designated foreign 
terrorist organizations. The provisions also call for U.S. financial 
institutions to block the assets of the designated organizations and 
render their members excludable from the United States.
New Programs and Initiatives
            Nunn/Lugar and related efforts to develop state and local 
                    partnerships
    We cannot, however, afford to rest on our laurels. Instead, in 
partnership with this subcommittee and the Congress, we must continue 
forging ahead to improve our capabilities to combat terrorism, and 
implement legislation enacted for that purpose. As a cornerstone of 
this effort, the five-year counterterrorism strategic plan will chart 
the course ahead for all of the agencies involved in counterterrorism. 
For now, let me highlight a few examples of our new programs and 
initiatives. In this respect, the Defense Against Weapons of Mass 
Destruction Act of 1996 was enacted as the Nunn-Lugar-Domenici 
Amendment (Nunn-Lugar) to the DOD Appropriations Act for Fiscal Year 
1997. ``Nunn-Lugar'' imposes upon the Executive Branch a number of 
requirements relating to preparedness in responding to the terrorist 
use of weapons of mass destruction (WMD)--chemical, nuclear and 
biological weapons--within the U.S. Among other things, the legislation 
requires the Executive Branch to assess its capabilities to assist 
state and local governments in preventing and responding to terrorist 
incidents involving such weapons. It mandates that DOD, in coordination 
with other relevant federal agencies, establish programs to advise and 
train civilian emergency preparedness personnel at all levels of 
government in planning for and responding to WMD incidents. 
Additionally, it directs DOD to establish rapid terrorism response 
teams for the purpose of assisting such authorities in the detection, 
neutralization, containment, dismantlement and disposal of weapons of 
mass destruction.
    The FBI and other federal agencies such as FEMA, the Department of 
Justice's Office of Justice Programs (OJP), the Department of Energy, 
EPA, and PHS, are supporting the Department of Defense in this 
initiative to provide WMD training to state and local ``emergency 
responders.'' These consist of state and local police, fire, and 
emergency medical personnel who would likely provide the initial 
response to a WMD incident. This initiative, which commenced in late 
fiscal year 1997, will eventually train emergency responders in 120 
cities throughout the United States. To date, officials from 19 cities 
have received training; an additional 31 cities are due to be 
introduced to the training in fiscal year 1998; and 35 more will be 
visited during fiscal year 1999.
    In addition to these Nunn/Lugar-driven initiatives, the FBI pursues 
continuous crisis management planning in conjunction with other Federal 
agencies, as well as with local police, fire, and emergency medical 
personnel. For example, to further enhance the federal-state-local 
approach to combating terrorism, the FBI has, to date, established 16 
Joint Terrorism Task Forces in field locations. The objective of the 
FBI in this respect is to ensure that all entities that would respond 
to an act of terrorism, involving either a WMD or a conventional 
weapon, are coordinated at the state and local, as well as at the 
national, level.
            The Counterterrorism Fund
    In 1998, Congress provided $52.7 million in the Counterterorrism 
Fund. Twenty-one million, two hundred thousand dollars has been 
allocated to ensure that State and local first responders have basic 
equipment and training to respond to chemical or biological incidents 
as well as those involving improvised explosive devices.
    A total of $5.2 million is provided for the FBI's Hazardous Devices 
School at Redstone Arsenal, Huntsville, Alabama. These funds will be 
used for the expansion and renovation of the Hazardous Devices School 
to increase the number of bomb technicians trained each year on 
response to improvised explosive devices as well as nuclear, 
biological, and chemical incident matters. The funding will also 
provide certain items and articles of equipment for bomb squad use.
    Further, $16 million is authorized for the provision of operational 
response equipment and training to state and local agencies that will 
enhance their capabilities to respond to an incident involving weapons 
of mass destruction. The Office of Justice Programs (OJP) will 
administer these funds as follows:
    Working with the FBI, OJP is developing a $12 million grant program 
to provide equipment to state and local authorities who would be called 
upon to respond to an incident involving weapons of mass destruction. 
Such categories of equipment include items necessary for personal 
protection, detection, decontamination, and communication during an 
actual response. The FBI and OJP will coordinate with Nunn-Lugar and 
other efforts that also provide equipment to first responders to insure 
that overlap does not occur.
    In addition, $2 million is provided for OJP to establish and 
administer a training center for state and local first responder 
personnel at Fort McClellan, Alabama. This Center will provide first 
responder personnel with state-of-the-art training, including ``hands-
on'' field and laboratory exercises to improve their capabilities to 
respond to and manage terrorist incidents, including those involving 
chemical agents and explosive devices. This Center will work in 
cooperation with a consortium of universities and other specialized 
facilities which offer resources and expertise critical to first 
responder training. OJP will coordinate its administration of the Fort 
McClellan program, both training and curriculum, with the FBI. $2 
million is also provided for the operation of a similar training center 
in conjunction with the Energetic Materials Research and Testing Center 
at the New Mexico Institute of Mining and Technology, in Socorro, New 
Mexico. OJP will administer this program as well, working with the 
Institute to define and develop curriculum and training appropriate to 
the Institute's capabilities and expertise in a manner that does not 
duplicate other available facilities and resources.
    In addition to these disbursements, $20 million of the CTF is to be 
used to reimburse Departmental components for costs incurred in support 
of countering, investigating, and prosecuting domestic and/or 
international terrorism; to finance reward payments in connection with 
such activities; and to restore the operational capacities of offices 
destroyed or damaged by domestic or international terrorist acts. Since 
approximately $48 million ($20 million in 1998 appropriations and $28 
million in carryover funds) was available at the beginning of 1998 for 
reimbursement, no additional reimbursement funding was requested in 
1999.
    The remaining $32.7 million in 1998 funds will be used for the 
following: development of the five-year interdepartmental 
counterterrorism and technology plan ($1 million); research and 
development ($10.5 million); and improving state and local response 
capabilities ($21.2 million).
    For 1999, the Department seeks $52.703 million in funding for the 
CTF. Of this, $16 million would continue the program begun in 1998 to 
provide Weapons of Mass Destruction response equipment and training for 
state and local first responders. In addition, an enhancement of $3.1 
million is requested to ensure the Continuation of Operations and the 
Continuity of Government during a time of emergency. The $3.1 million 
will fund an alternate crisis management/relocation facility to carry 
on essential Justice Department functions in the event the Department, 
or one of its components, is denied access to its facilities for 
various reasons, such as a terrorist act. The remaining $33.603 million 
is requested to implement certain recommendations of the President's 
Commission on Critical Infrastructure Protection, including funding for 
the expansion of the FBI's National Infrastructure Protection Center 
(NIPC). Funds not required for either ensuring the continuity of 
essential Department functions during an emergency or for critical 
infrastructure protection would remain available for the other 
authorized purposes of the CTF, including countering, investigating, 
and prosecuting domestic or international terrorism.

    Senator Gregg. Thank you, Madam Attorney General. If you 
will make a note, or if your staff will make a note, to get us 
language you want on the equipment issue, we will get that in 
the bill.

                       Director Freeh's statement

    Director.
    Mr. Freeh. Thank you, Mr. Chairman. I will just make a very 
brief statement. Let me also join the Attorney General in 
commending the committee, and particularly your own personal 
leadership in this critical area.

                      History of counterterrorism

    I think if you look at the history of counterterrorism 
activity by the Federal Government, you will see an historic 
change beginning in about 1995, with respect not only to the 
emphasis, but to the resources and infrastructure which this 
Congress and this committee, particularly, has spearheaded, in 
terms of the delivery of those services for the protection of 
the people that we are obligated to protect.
    Let me just contrast very briefly incidents of a few years 
ago, given the available tools and resources, and what we are 
prepared to react to today in 1998, thanks to the resources and 
the leadership of this committee.
    If you take the bombing of the World Trade Center, if you 
take the Khobar bombing in Saudi Arabia, even the Oklahoma City 
bombing, those were catastrophic acts of terrorism, both 
domestic and foreign, to which the Federal Government, the 
State and local officials, and particularly the Department of 
Justice reacted to very quickly, in my view very ably, and very 
expertly, given the results of those investigations, and the 
speed with which the individuals at least in the World Trade 
Tower case and the Oklahoma case were identified and 
apprehended, convicted, and sentenced.
    We did not have at that time the many resources which are 
now part of our routine table of tools to deal with these kinds 
of cases. For instance, we did not have a Counterterrorism 
Center during those events, which this committee has provided 
to us, where now 18 Federal agencies can co-locate and work, 
not just to analyze information and intelligence, but to 
respond in a unified fashion when an attack such as those 
occurred.
    We did not have the structures that we now have with 
respect to the Infrastructure Protection Center. We did not 
have the hazardous materials response unit in our laboratory 
which responded very recently to the threat in Las Vegas of an 
anthrax attack.
    We did not have the weapons of mass destruction operations 
unit. We did not have the expanded legat program, which this 
committee also was responsible for supporting successfully, 
which gives us the ability to work overseas, not only to 
prevent these kinds of acts, but also to solve them quickly.
    We were not engaged in first responder training, as we are 
now. We did not have the expanded capabilities in our 
operations center, that the new SIOC facility which was funded 
under the leadership of this committee will have when it is 
opened in August of this year.
    We did not have the relationships in place between the FBI 
and the CIA on the one hand which now result in apprehensions 
of people like Kasi and their return back to the United States.
    We did not have the PDD-39 which clearly specifies the 
FBI's leadership role in counterterrorism acts in the United 
States, as well as the lead supporting role in overseas 
activities.
    We did not have the designated Department of Justice 
attorneys in the critical areas relating to counterterrorism, 
both in terms of acts of violence and also cybercrimes and 
attacks against our infrastructure.
    We did not have the plan and the framework for putting 
together the resources which are needed to further focus our 
mission and coordinate what we are doing. We did not have the 
equipment that is now provided to our CIRG unit in Quantico for 
dealing with hazardous material investigations and responses.
    And I could go on, actually, at some length. What I think 
is critical is that beginning in 1995, and continuing this year 
and now into the 1999 request, this committee, and you, Mr. 
Chairman and Mr. Hollings, really, turned around the question 
of resources and capability, and infrastructure. And we will be 
better prepared to protect this country and its people in the 
years to come as a result of that.

                        Counterterrorism threats

    The threats change, of course, from year to year. We have 
individuals, even very recently, shutting down a small airport 
in New England by a computer attack against its infrastructure. 
We have other individuals trying to shut down 911 systems in 
Florida, systems which are critical to the protection of 
everyone.
    We know that we have terrorists and spies, and even more 
common, white collar criminals looking to exploit information 
systems to commit crimes. We see that most glaringly in the 
Innocent Images case, which again, your leadership and the 
leadership of this committee have been responsible for giving 
us the tools to deal with these issues.
    We are in a formative stage in the sense that we are still 
planning how to carry out these functions, to use the resources 
wisely, to make sure we do not duplicate what other agencies 
are doing.
    The Attorney General, in particular, has emphasized to us 
the need to insure that our State and local partners not only 
receive the training and equipment which this committee has 
authorized, but that they have direct input into our 
Counterterrorism Center, that their interests are represented 
in the new National Infrastructure Protection Center, and to 
make sure in all of our endeavors that we work with them 
closely and cooperatively.
    We have other issues and problems to deal with. The 
Attorney General mentioned encryption. These are issues that 
need to be addressed, to give us the capability which I know 
your committee and the Congress intend us to have by the 
appropriations and the leadership that they have shown in this 
area.
    So let me add my appreciation to that of the Attorney 
General, and tell you that as the FBI Director I am confident 
that in 1998 we are twice as prepared to deal with these 
threats, both at home and overseas, both truck bombs as well as 
infrastructure attacks, and we are twice as prepared because of 
the resources, the leadership, and the focus which this 
committee in particular and the Congress has given to this 
problem.
    Thank you.

                     Counterterrorism coordination

    Senator Gregg. Thank you, Director.
    I agree. We are at least twice as prepared, but we are 
still, as you mentioned, in the formative stages. I want to go 
over a little bit where we are, because I would like to get a 
sense of how this is playing out. In your opinion, who is 
coordinating the national effort on counterterrorism for 
anticipating events in the area of weapons of mass destruction, 
and where should that responsibility be, and is that 
coordination being done correctly?
    Ms. Reno. Let me address it initially. The coordination, 
under PDD-39, between agencies ultimately lies with the 
National Security Council. Where it relates to domestic 
terrorism and the use of chemical, biological or nuclear 
weapons within the United States, the FBI is the lead agency, 
and the Department of Justice and the FBI are planning on a 
regular basis and developing through the 5-year strategy that 
plan.
    As part of the 5-year strategy, as I mentioned, we have 
submitted to you an outline. But we will now be meeting with 
the different agencies, both those that you have mandated that 
we meet with, and we are bringing in other agencies to ensure 
that there is full consultation and that we develop an 
organized plan with relationship to all terrorist issues as 
well as weapons of mass destruction.
    With respect to immediate issues, we are in the process of 
doing the Nunn-Lugar initiatives in a number of cities, and 
learning from those experiences what can be done to improve our 
coordination with the Department of Defense.
    As you noted before the hearing began, the Department of 
Defense has undertaken certain steps with the National Guard to 
be prepared through teams that would be available for 
responding. As I indicated, we will be having regular meetings. 
We have already had our first meeting with the Department of 
Defense, and one of the issues that we have identified for 
discussion is how we handle these matters together, and what we 
do with respect to coordination at the scene.
    I would let Director Freeh respond further.
    Mr. Freeh. I just would echo what the Attorney General has 
said. I think the current structure with respect to response 
and playing the leading, coordinating role in response to these 
particular events, particularly domestic events, is really 
successfully placed with the Attorney General, and the FBI as 
the lead agency in the planning for events, where opportunities 
of attack and targeting are obvious or contemplated, and also 
in responding to those events.
    I think that the PDD-39 formula which puts that 
responsibility with the Attorney General and the FBI is 
prudent. I do not think it should be altered.

                            Role of the NSC

    Senator Gregg. I guess my question is, is it working? We 
did read some reports that the NSC has stepped into the arena 
in maybe a way that has put it in the process of making law 
enforcement types of decisions, versus being a coordinating 
agency. Is there a positive, constructive coordinated effort, 
or are we running into turf problems between different 
agencies?
    Mr. Freeh. My view is that the current coordination is 
successful, and we are having discussions, not only with the 
NSC, but other agencies, with respect to refining that 
cooperation. There are some areas of disagreement. We are 
engaged in those discussions now, and we are hopeful that they 
will maintain what I think is the current, successful formula.
    Senator Gregg. How do you feel, Madam Attorney General, 
relative to the NSC's role, and specifically who should be 
doing what?
    Ms. Reno. I have found that the PDD-39 mechanism as it 
exists today has been very, very satisfactory. I have pointed 
out on a number of occasions that the NSC has an important 
coordinating role. The PDD-39, as it is drafted, specifically 
provides that it does not mean that the NSC can direct action 
with respect to domestic law enforcement. But what I have found 
is that they are just exactly that--a good coordinator. They 
have not directed action. They have faithfully communicated my 
position to the President of the United States when I am in the 
minority, and I have felt that it has been a good working 
relationship with proper deference to the fact that the law 
enforcement agency should be responsible for domestic law 
enforcement and terrorism issues.

                     Role of National Guard and DOD

    Senator Gregg. And the National Guard and the Defense 
Department, which is really the biggest part of the equation 
out there outside the FBI for domestic issues. Obviously CIA 
when we get into international issues, and State. But to what 
extent is there a coordinated, comprehensive domestic 
preparedness effort that ties in the National Guard and Defense 
Department?
    Ms. Reno. I think we have much to do on that. Under the 
program announced by Secretary Cohen, the Department of Defense 
has just established the Consequence Management Program 
Integration Office. That office will oversee the integration of 
both National Guard and Reserve elements into overall agency 
weapons of mass destruction preparedness programs.
    Part of the effort is the establishment of 10 rapid 
assessment and initial detection elements. As Secretary Cohen 
has said, it will be dedicated solely to assisting local 
civilian authorities in the event of a chemical or biological 
attack. In other words, their main focus is consequence 
management, and for that reason they will be aligned with 10 
FEMA regions to provide a more flexible and immediate 
capability to support a State's response.
    In addition to that, I understand that the DOD initiative 
also provides for additional training of existing reserves so 
they will be better able to assist at home. We need to have 
further conversations with the Department of Defense, and as I 
indicated, we are having regular meetings with them now, and 
this has already been identified as one of the areas that we 
should address.
    And we need to look at what is happening in the field with 
the initiatives that have been undertaken in the field to see 
what we can do to improve that coordination.

                     Domestic preparedness program

    Senator Gregg. When I went over there and got briefed by 
those folks, they talked about the fact that they have targeted 
the first, the top, I think, 120 cities in the country to bring 
them up to speed, bringing their fire departments and police 
departments up to speed in their capacity to respond to a 
weapons of mass destruction attack.
    Now, obviously that should be coordinated with the Justice 
Department and the FBI. To what extent is it coordinated with 
the FBI, this actual education and structuring of the response 
on the ground by the community leadership, which is then 
followed up by the FBI and FEMA and the first response teams 
coming in from wherever they are located?
    Mr. Freeh. With respect to not only the designation of the 
120 cities, but the carrying out of the first response 
training, the FBI has been a participant, a full partner 
participant in the planning and is now taking it to the 
training and implementation stage.
    We hope that all of the 120 cities will receive that 
training over the next 18 months to 2-year period. And although 
the authorization and appropriation is a DOD funding, we have 
been working very closely with them and are satisfied that that 
part of the responsibility is being implemented in a way that 
will not only give them the technical training, but the liaison 
to the Federal counterparts which would be triggered in the 
event of an emergency.
    Senator Gregg. I am going to have to go vote. I apologize. 
I will be back.
    [A brief recess was taken.]

                        DOD-Justice coordination

    Senator Gregg. I apologize for the delay.
    On the issue of the National Guard and what DOD is doing, I 
recognize that you are trying to coordinate with the Defense 
Department, and I know it is preliminary and everybody is going 
off and trying to do their own thing. What the Defense 
Department is doing is excellent. I respect what they have 
attempted to do, especially with the National Guard and with 
the education, in bringing their various communities up to 
speed. Is there anything further we could do to make sure this 
was a little more coherent exercise so that Justice knows what 
Defense is doing, and vice versa?
    Ms. Reno. What I have asked is that we take the initiatives 
that have already been pursued in the first of the 120 cities, 
and that we analyze those--I think they have been analyzed in 
after action reports, but I have not received those--to see 
what the problems were, and what we can do to organize better.
    Some of these initiatives, and correct me if I am wrong, my 
people in the back, have been done, and I understand that they 
have been carried out very efficiently and effectively. But 
there has not been a coordination through to the Department of 
Justice that I am aware of, up to the highest levels that would 
involve us all.
    Senator Gregg. So how do we get that?
    Ms. Reno. Well, I think we are going to get that now. And 
then I think we have got to work with the Defense Department, 
who has committed, and Deputy Secretary Hamre has committed, to 
participating in the National Infrastructure Protection Center. 
That should be resolved very quickly. There will be a presence 
there, and I think that will be the place that so many of these 
issues can be ultimately resolved.
    At the same time, as I mentioned, this is one of the 
highest priorities in the table of issues that we have 
identified for discussion with our meetings with the Defense 
Department. So I think these issues will be addressed in short 
order.

                      Status of title V exemption

    Senator Gregg. Well, let us also make sure we have the 
National Guard at the table, because I think their 
responsibility here is going to grow exponentially, because 
they are a very logical resource, an underutilized resource. 
And I know as a former Governor that they would be an extremely 
appropriate agency to turn to, as a Governor, to try to be the 
coordinating agency within a State.
    Now, on the issue of attacks against the infrastructure, 
you have the CITAC effort. You have a number of efforts going 
forward to try to coordinate. The Attorney General mentioned 
that you folks needed access to better equipment. Obviously, if 
you need some legislative language to do that let us know.
    You also need personnel. How are we doing on the title V 
issue with the OMB? Have we got that straightened out yet, so 
we can actually hire people who are capable of doing that 
stuff?
    Mr. Freeh. Senator, we are working with OMB and OPM very 
intensely to get to them what they have required, which is a 
paper which addresses recruitment and retention issues, as well 
as the authority, which the Congress has now given us, to hire 
critical employees in key areas without the restriction of 
title V.
    I have given our people, and we are working in close 
conjunction with the Department's personnel people, within a 
very short timeframe, to get the plan up to the requirements 
and we think the expectations of the OPM and OMB people.
    At that point we will expect them to approve it, and then 
we can move forward, and begin these hires.
    Senator Gregg. I appreciate that, and this is not directed 
at you, but the Congress has been pretty specific on saying 
that we want you to have this flexibility. I find it 
unconscionable that OMB is standing in the way of all sorts of 
efforts in the area of detecting criminal activity in this 
country, but specifically the terrorist threat by their 
unwillingness to move expeditiously on this issue. That is an 
editorial comment.
    Ms. Reno. Mr. Chairman, can I just make sure there is no 
misunderstanding about that. We owe OMB something.
    Senator Gregg. Yes; but they owe the Congress something, 
too, which is action.
    Ms. Reno. Well, it is our step to be taken, and we are 
pursuing it as vigorously as possible, and in my discussions 
with OMB I think we will find a receptive ear.

                       Infrastructure protection

    Senator Gregg. OK. Let us hope so.
    Now, on these attacks on the infrastructure that come 
through technology activity, to what extent do you perceive 
these to be internationally driven, and, second, to what extent 
are they driven by Government-sponsored international activity?
    Mr. Freeh. Many of them, in fact, most of the ones that 
have been publicized, quite apparently, have been individual 
actors. In many cases, juveniles, even though the juveniles 
resided outside the United States.
    We are aware of, and we do have information with respect to 
planning, at least planning operations by foreign 
counterterrorism services, as well as external services, to 
attack infrastructure targets. We have gotten that information 
through a series of sources. We have not seen any attacks that 
we can identify as foreign state-sponsored attacks, but we do 
know that it is an area of expertise that many foreign services 
have developed, but not to my knowledge as yet utilized here in 
the United States.
    Senator Gregg. Do you need significantly more resources in 
this area?
    Mr. Freeh. I think it is an area where we do need 
resources, precisely because the nature of these attacks, as 
documented by a recent Department of Defense exercise, 
indicates that the subtlety, as well as the transparency, of 
the intrusions are very capable of not being detected, and that 
the more resources and the more interconnectivity, the ability 
to trace back upstream bits and pieces of evidence maybe not 
apparent on a piece-by-piece analysis, but in a computerized 
type of matrix, make a lot more sense.
    So I think it is an area where both the Department of 
Defense and criminal justice efforts will require more 
resources over the years. And I think our budget contemplates 
the initiation of that phase.

                          Israeli hacker case

    Senator Gregg. I notice that there was a recent incident 
with Israel, and Israeli, not Israel--well, Israel, too, in a 
hacker attacking an American Government agency. It did not seem 
to me that the Government of Israel was very cooperative in 
allowing us to handle that individual from a standpoint of law 
enforcement. What is your reaction?
    Mr. Freeh. From a law enforcement point of view, we did get 
very quick access to the information, as well as the interviews 
which were conducted in Israel. Our legat in Tel Aviv 
immediately made contact with his counterparts.
    I think from an investigative point of view, not maybe a--
--
    Senator Gregg. I am talking about a prosecutorial point of 
view.
    Mr. Freeh. Well, with respect to extradition, those are 
issues which have been problems not only in Israel but in many 
other countries.
    But in terms of access to the information and quick facts 
relating to the methodology of the attack, the Israelis were 
very forthcoming with us.
    Ms. Reno. One of the areas that we are focused on, and we 
had an excellent meeting beginning with the P-8 countries in 
December, is we are much further advanced than most other 
countries in the development of information technology, and in 
the reliance on it in our infrastructure.
    But the other major industrial countries are right behind 
us. And one of the things that is clear and that we have 
committed to try to do is to recognize that locating the 
intruder is one of the more difficult issues. It requires for 
us to really be effective 7 days a week and have the round-the-
clock ability and capacity to respond. And so we are trying to 
move in that direction. It requires an ability to locate, and 
we are trying to move in that direction.
    We are looking at the development of common statutes. Now 
that is just the major industrial countries. One of the things 
that we have learned with respect to this whole issue is that a 
country that is not industrially advanced can be the source of 
an intrusion from some very bright young person that can cause 
us fits. And so we need to develop the capacity worldwide.
    The second point is one that Director Freeh alluded to, and 
one that I have concentrated on a great deal during my time as 
Attorney General. That is, if we are going to build a 
hemisphere and a world of trust, then we are going to have to 
trust each other to extradite nationals and to let the crime be 
tried and prosecuted where the crime was committed. That is a 
slow process, but we are making some progress, not enough.

                        International cybercrime

    Senator Gregg. Well, do we need a new international 
convention of some sort to address the issue of cybercrime? I 
mean, should there be an international symposium of some sort 
on this?
    Ms. Reno. As I mentioned in my prepared remarks, we are 
spending a great deal of time with the P-8 countries, with the 
Council of Europe, and with the OECD in developing just this. I 
do not think we are to the point yet where we could develop an 
international convention, but this is certainly what we should 
be moving toward.
    Senator Gregg. How high is this on the agenda of the White 
House, when they meet with the G-7, or they meet with the ASEAN 
countries? Does this type of topic ever come up? Is it ever put 
on their agenda as an item?
    Ms. Reno. It has been very much on their agenda, as I 
understand it. I have not been there. But the meeting of the 
ministers of justice, or the ministers of interior, my 
counterparts, this past December was as a direct result of the 
priorities established by the leaders of the P-8, and I think 
reflects their commitment to this issue.
    I know the President is very sensitive to this issue. The 
President's Commission on Critical Infrastructure Protection is 
a clear example of that, and I think he is, I have felt that he 
is very supportive in this effort.
    Senator Gregg. Should we have a freestanding operation 
under the Justice Department somewhere that specifically 
addresses this type of crime?
    Ms. Reno. I would like Director Freeh to comment as well, 
but one of the problems that you face is that you do not know 
what it is going to be. When you see it, you do not know where 
it is coming from or who it is. It may turn out to be a 
domestic juvenile hacker. It may turn out to be a foreign 
power. It may turn out to be a terrorist. We do not know coming 
into it, but we have got to have the flexibility to move on to 
a different stage of investigation if it should be determined 
to be an act of a foreign power, or if it should be determined 
to be a terrorist who is systematically taking down the 
structures around the country.
    This is the reason it is so important, and the initiatives 
undertaken by the Department of Defense in conjunction with the 
Department, eligible receiver, and our initiatives with respect 
to the recent intrusion that you referred to have been so 
important.
    The National Infrastructure Protection Center, I think, 
will be the ideal place to focus responsibility because if you 
leave it just as a cyber issue, you will not be able to fully 
coordinate the issue when it is both a cyber attack and a 
physical attack.
    And the way the FBI has set up that structure with this 
Counterterrorism Center immediately available to the National 
Infrastructure Protection Center I think provides the ideal 
coordination with representation. I said 19 on the 
Counterterrorism Center, but it is 18 other agencies 
represented in the Counterterrorism Center.
    If we can build the same capacity in the National 
Infrastructure Protection Center, if we can involve the private 
sector and State and locals, we will have a system there both 
on the terrorist side, the physical terrorism side, and the 
cyber side that can be fully coordinated through the FBI's 
SIOC, if there is a situation which brings in both physical 
terrorism and the cyberterrorism together.
    Senator Gregg. Did you want to expand on that?
    Mr. Freeh. Yes; I think we are really at the beginning of 
what will be seen ultimately as a revolution with respect to 
the methodologies by which criminals and terrorists and spies 
commit crimes and the ability of the Government, particularly 
the Department of Justice, to respond to that.
    I think the advent of computers, networks of information, 
infrastructures, really does represent a revolution in terms of 
what we are charged with combating. I think it is a little bit 
akin to the use of the automobile.
    The advent of the automobile in the early 1930's, allowing 
criminals to commit crimes and to escape and to get access to 
new areas to commit crimes really caused a change, a graphic 
change in the tools, resources, and authorities required by 
Federal agencies to respond to that, as well as the State and 
locals.
    So I think going back to your question, you will see very 
shortly the establishment of new components, particularly in 
the Department of Justice. And as the Attorney General 
described it, the NIPC is exactly that component which is 
responsible for criminal investigation, for early warning, for 
research, for State and local training, and to take both the 
counterterrorism as well as the criminal aspects of this 
technology and put it where it belongs, which is in the 
operational capacity of the Department of Justice.
    Department of Defense and national security reasons require 
other capability on that level. But those two have to be 
connected, and I think the NIPC is the first attempt to do 
that. But you will see, I think, increasingly in this 
Department of Justice, in the FBI, and in your State and local 
law enforcement agencies, whole new components which will be 
responsible for dealing with a whole new genre of crime.

                        Technology exploitation

    Senator Gregg. As you say, this is a revolutionary event. 
As the technology moves, so must you. Is there a review system 
that you feel comfortable with that is going to allow you to 
anticipate the technology threats and respond to them, rather 
than having them occur before you know they exist?
    Mr. Freeh. Yes, exactly. The research capacity and the 
resources that you and the committee have given to us will be a 
first step in that direction. We will report to you by the end 
of the year the contours of that research and the objectives as 
well as the anticipated benefits.
    But the precise idea behind that, which I thought was a 
great idea--was not mine, by the way--was to begin looking at 
the technology in terms of prevention and acquisition of 
techniques and equipment to prevent and defeat attacks, as 
opposed to just solving them and reacting to them.
    So I think that is the first investment in that, and I 
think it is a wise one. I think there will be much more 
required, significantly more, as the type of crime that we deal 
with grows quickly.
    Senator Gregg. How close are we to----
    Ms. Reno. Could I add something there, because I think it 
is vitally important. With the information infrastructure as it 
is in this country today, with so much of the private sector 
dependent on it, banking and finance, energy, utilities, 
transportation, it becomes absolutely critical that law 
enforcement form a partnership with the private sector unlike 
perhaps anything that we have seen before, because it is all 
interrelated. And one of the things that we have got to 
understand is the interconnectivity and how one industry or 
sector can affect another, and how we can engage in 
preventative efforts.
    I think there is, to some extent, a distrust between the 
private sector and law enforcement. That distrust is being 
broken down by experts from both sides coming together. I had a 
wonderful opportunity about 3 weeks ago to speak to scientists 
and academics and private sector representatives at the 
Lawrence Livermore National Laboratories when I announced the 
National Infrastructure Protection Center.
    It is so important that we build on that knowledge. They 
can give us new ideas about evolving equipment, and evolving 
technology that can be vital to our efforts. They can give us 
information concerning intrusions that are absolutely vital.
    So the steps that we are also undertaking are reaching out, 
and the center, as the FBI has designed it, provides for an 
outreach component. They are already engaged in that. It is 
also important that we reach out to the State and locals in the 
same way. And I think not just the expertise, not just the 
equipment, but the outreach will be vital, and the partnership 
that is developed from that outreach will be vital to our 
success.

                               Encryption

    Senator Gregg. How close are we to reaching an agreement on 
encryption?
    Mr. Freeh. I think we have a lot of work to do. There is 
still a----
    Senator Gregg. But without an agreement on encryption you 
basically do not have a----
    Mr. Freeh. Without an ability to deal with robust 
encryption with a court order, a lot of these counterterrorism 
efforts, a lot of our drug efforts will be defeated. There is 
no question about that.
    Ms. Reno. My sense is that it is very important for law 
enforcement, for the Department of Justice, to pursue these 
discussions with the private sector, to build trust, to build 
understanding.
    We are all in this together, and from my conversations with 
the private sector, they are saying, recognize that we are in 
this together, and let us see how we can work together. Do not 
tell us what to do. Describe the problem to us, and you may 
find that the private sector may have more than one solution to 
the problem that can be more effective for you.
    So it is absolutely critical. Nothing will work unless we 
solve this encryption issue. But I think if we just keep 
working very hard we will make some real progress in these next 
60 days.
    Senator Gregg. I think people need to understand that if we 
do not solve the encryption issue, the country is basically 
open to all sorts of threats--terrorist threat, and obviously 
drug dealers.
    Ms. Reno. Since this is a forum where people may hear and 
say, well, just what does encryption mean, I think it is 
important for them to understand what we do today.
    Today to get a drug dealer, Director Freeh's agents can 
prepare a wiretap application that is very detailed, it 
requires probable cause to take it to the court, and the court 
approves it. It is clearly authorized and sustained under the 
law. We do that in our fight against drug dealers and our fight 
against terrorists. What the issues with respect to encryption 
are, is not expanding what the FBI can do, but only adapting to 
modern technology, which encrypts, and very strong encryption 
that cannot be broken, messages, stored data, and even online 
access.
    So we are not asking for additional authority to surveil. 
We are asking that our authority be adapted to modern 
technology.

                      Anthrax threat in Las Vegas

    Senator Gregg. Absolutely. Now, on the anthrax threat in 
Las Vegas, what did you learn from that that you did not know? 
And what should we be doing as a result of that?
    Mr. Freeh. Of course, one thing was apparent, which was a 
positive event, and that is the fact that the FBI office in Las 
Vegas, in conjunction with the other Federal agencies, 
particularly with FEMA, with the Department of Defense, and 
with the State and local agencies, including the emergency and 
rescue operations, and the mayor's office, there was very, very 
strong prior cooperative efforts--not particularly in an 
exercise involving anthrax--but in exercises involving crisis 
management.
    The SAC had received that training. The State and locals 
were aware of the system that would be triggered, and was 
triggered, with the FBI taking the lead in conjunction with 
FEMA, and using Department of Defense elements who facilitated 
the transportation and analysis back here in Washington.
    We are in the midst of doing a postincident review to see 
what we could have done better in that regard. We are, however, 
pleased with the result, in terms of the response time. The 
warning system was triggered, we think successfully, and it 
took relatively short time to resolve a very difficult and 
complex scientific analysis.
    We want to do that quicker in the future. We want to look 
at field testing equipment that could be safely and 
successfully used to do a more positive and earlier 
identification. Although that technology is not where it needs 
to be, and is not available now, it probably will be in a short 
time, again, as a result of these efforts and resources that 
you have given us.
    But the coordination was very well done, and that is not my 
own view. It is the view of the State and local participants, 
the other Federal agencies. And if we had a blueprint for 
working together in that kind of incident, it certainly was 
evidenced there.

                       International coordination

    Senator Gregg. There was a comment made in a GAO report 
that came out dealing with terrorism, if I can find it. It 
seemed to imply that we needed to do more in the area of 
international coordination. Unfortunately, I cannot find it 
immediately. But can you just give us your thoughts on where we 
stand in coordinating our overseas efforts with the State 
Department, the CIA, and with various agencies, in trying to 
anticipate terrorism threats?
    Mr. Freeh. With respect to the CIA, and I think I have said 
this before, Mr. Chairman, even in this committee, the 
relationships between the Bureau and the CIA, not just in the 
counterterrorism area, but in all of our across the board 
responsibilities could not in my view be stronger. And that is 
a testament to George Tenet's leadership, to John Deutsch's 
leadership. The Kasi operation, although a fugitive operation, 
really put into play the critical elements that are required 
for our successful operation together overseas, which is the 
headquarters component, and then the foreign, on-the-ground, 
coordination.
    The State Department was also a key player in that. Under 
the PDD-39, the State Department is the lead coordinator for 
acts of terrorism outside the United States. We have assembled, 
using them in Peru and in some other occasion, the foreign 
emergency support team [FEST], the foreign deployed team of 
American experts, which represents all of the responsible and 
expert agencies to deploy physically and immediately in 
response to a counterterrorism attack.
    The level of expertise and awareness by the Ambassadors 
around the world with respect to counterterrorism has been in 
my view enhanced, and better coordinated with our legat 
program, the people that we have overseas.
    So I think the overall coordination overseas, particularly 
with the agency, is good. We are talking about doing with the 
State Department what we have done with the CIA, which is 
exchanging officers or deputies in key areas of our 
counterterrorism responsibilities and international operations. 
So we can have that kind of seamlessness. We have an FBI agent 
who is a deputy in the counterterrorism center. We have a CIA 
officer who is a deputy in our international terrorism section. 
We found that that kind of exchange probably does more than 
anything else to insure smooth reactions and cooperative 
efforts. So in all, I would report very positively on those 
endeavors.
    Ms. Reno. I would raise one additional point which I think 
is important. I think we have got to also continue our efforts 
to develop law enforcement capacity in the emerging democracies 
in those nations that are coming into democracies.
    What the FBI has done with Budapest I think has just been 
excellent. I have had a chance to visit there. But anytime a 
minister of justice from the Middle European countries comes to 
visit, it is just a very eloquent, almost plaintiff plea for 
law enforcement training, for institution building, for courts, 
for prosecutor training. You realize how fragile democracy is, 
and how fortunate we are.
    I have had the opportunity to talk with the State 
Department, and I am hopeful that we can build capacity around 
the world with our allies, and with those nations that work 
with us, so that they can respond as well.
    I mean, there are different grades and different capacities 
now, and the more we can build that capacity for those first 
responders, the more it will be helpful, whether it be in drug 
enforcement, or anything else.

                             Pan Am bombing

    Senator Gregg. Do we still presume that the two people 
responsible for the Pan Am, Lockerbie bombing are in Libya?
    Mr. Freeh. Yes, sir; that is our current information. As 
you know, there are two defendants who are on our top 10 list, 
and efforts are consistently and intensely being followed.
    Senator Gregg. Has there been any progress in those 
efforts?
    Mr. Freeh. No; there are discussions now which have been 
publicly reported about agreement on a venue for the trial in 
exchange for the delivery of the two defendants. But those have 
not concluded in any regard.
    Senator Gregg. But we are still pursuing it.
    Mr. Freeh. Yes, sir; we are.

                    Improving response to terrorism

    Senator Gregg. Is there anything you need from us as a 
Congress to make your ability to respond to the issues of 
terrorism which we have gone over here, or any other issues 
relative to that question more effective?
    Mr. Freeh. Senator, we would just note a couple of things, 
and you have really noted many of them in your statements and 
your questions. Certainly the continued support for these 
initiatives at this particular time is critical.
    As I said, I think we have really turned the corner on our 
capacity and abilities, and the follow up which will occur in 
the next couple of years, based on this type of strong support 
by you and your colleagues is obviously critical.
    We need assistance on the encryption issue. We are trying 
to work that, as the Attorney General said, in a consensus 
manner with the industry. We hope that that works. We hope that 
we are not required to come back and seek legislation.
    There are some other aspects of what we do, from a 
technical point of view, and we can certainly provide those to 
you and the committee in a separate submission. But minor 
amendments to some of the current statutory authority, could be 
done, I think, with little trouble.
    For instance, the addition of terrorist offenses to the 
Federal racketeering statute would certainly be a very prudent 
and appropriate use of a statute, which tends to accumulate and 
predicate offenses when there is an overriding enterprise 
dedicated to committing serious harm, as anybody involved in 
terrorism certainly would be.
    Authorizing the interception of communications for certain 
terrorism-related offenses. In other words, expanding the title 
III statute to include as predicates some of the terrorist 
offenses. Giving us the ability to do multipoint wiretaps. Not 
being able to choose between techniques and coverage, if the 
terrorist decides to use a phone or instead talk in an area 
where we have probable cause to intercept conversations.
    Authorizing the use of pen registers to trap and trace 
devices in foreign intelligence and international terrorism 
investigations. We do not quite yet have that authority, 
although we have asked for it for several years.
    Providing temporary emergency wiretap and pen register 
authority for terrorist crimes. We can do that now for most 
serious criminal offenses. We cannot do it for the terrorism 
crimes.
    Extending the statute of limitation provision for the 
National Firearms Act would be one slight amendment which would 
help us in these kinds of cases. Modifying the statutory 
exclusionary rule under the wiretap statute to exclude from 
coverage those situations where good faith exists.
    Clarifying the removal ground of engaging in terrorist 
activity in order to permit full and effective utilization of 
the alien terrorist removal court. And I think a number of 
other provisions. We would be happy to submit those to the 
committee in writing, and follow up with type of documentation 
or hearing that you would think necessary and appropriate.
    Senator Gregg. Thank you. We would like to get those.
    We probably would not be able to stick them all in our bill 
or we would be shot by the chairman of the Judiciary Committee, 
but we can put as many of them in as the Judiciary Committee 
can tolerate.
    We are joined by the chairman of the Intelligence 
Committee, and it is an honor to have him here. I will turn to 
you.

                  prepared statement of Senator Shelby

    Senator Shelby. Mr. Chairman, I appreciate you inviting me 
over here today, but I have a written statement I would like to 
be made part of the record.
    Senator Gregg. Of course.
    [The statement follows:]

            Prepared Statement of Senator Richard C. Shelby

    I would like to thank Chairman Gregg and the members of the 
Subcommittee for allowing me to sit in on today's hearing and 
commend Chairman Gregg for convening a hearing on this 
important matter.
    We all learned from the World Trade Center bombing and the 
Murrah building bombing, among other incidents, that terrorist 
acts can occur on American soil. While these acts caused great 
damage and loss of life, they are only examples of the impact 
of conventional explosive devices. I am concerned that we 
recognize the full range of weaponry available to terrorist 
actors.
    As Chairman of the Select Committee on Intelligence, I am 
currently holding a series of hearings in conjunction with 
Senator Kyl, the Chairman of the Terrorism Subcommittee of the 
Judiciary Committee regarding the full spectrum of terrorist 
threats--from international groups and state sponsors of 
terrorism, to domestic terrorists producing homegrown poisons. 
So far we have learned that there is a significant capability 
for terrorist groups to use destructive devices involving 
chemical and biological agents. I intend to continue to 
investigate the various terrorist threats and hold future 
hearings on these matters.
    However, as we develop an understanding of the existing 
threat we must also take action--the United States must prepare 
for any of the many kinds of terrorist acts that could occur. I 
commend Chairman Stevens and Subcommittee Chairman Gregg for 
instituting the process to develop a national preparedness plan 
and I am pleased by the hard work of the Attorney General and 
the men and women of the Justice Department as they design and 
work toward implementation of this plan.
    Specifically, I am encouraged by the conceptual discussions 
regarding the creation of an Executive Office for Domestic 
Preparedness within the Justice Department. I hope this 
proposed office quickly becomes a reality as I believe that it 
will facilitate the creation of an effective and comprehensive 
national counterterrorism strategy.
    I recognize that we are only in the developmental phase of 
this process. We have much work ahead of us. It is no small 
feat to develop a national response plan that integrates local, 
state, and federal assets in the counterterrorism effort. As I 
stated earlier, as Chairman of the Select Committee on 
Intelligence, I intend to continue to hold hearings to 
investigate the nature of the terrorist threat which I believe 
will produce findings useful to the development of a national 
counterterrorism strategy.
    Again, Chairman Gregg and members of the Subcommittee, I 
appreciate the opportunity to participate in today's hearing 
and look forward to hearing the testimony of the Attorney 
General and FBI Director Freeh.

    Senator Shelby. I think the hearing that you are having is 
very appropriate. Timeliness is everything. I have worked with 
the Attorney General, and will continue to work with her, and 
also Judge Freeh of the FBI, in dealing with terrorism in every 
form.
    We have focused on a good bit of this, in the Intelligence 
Committee, and as they both know we have some upcoming hearings 
when we get back--one closed and one open, because this is a 
real threat to America. And how we respond to it, and what we 
do with it will depend a lot on what we do here, what you do on 
policy, what we do to help you, I believe.
    But I want to thank you, Attorney General Reno. Your 
leadership as the Attorney General of the United States has 
been real focused here. Judge Freeh, you have been outspoken on 
this on many occasions before the Intelligence Committee, the 
Judiciary Committee, the Appropriations Committee.
    It is something that is not going to go away, and we cannot 
ever, ever look the other way on, is it?
    Mr. Freeh. No, sir.
    Senator Shelby. So thank you, Mr. Chairman.
    Mr. Freeh. Thank you, Mr. Chairman.
    Senator Gregg. Thank you, Senator Shelby. You see, like you 
have turf issues in the administration, we have turf issues 
here, but we get over them by just having the chairman of the 
Intelligence Committee stop by so we get it all straightened 
out. I very much appreciate that.
    Senator Shelby. I do not know if we have straightened out 
anything. But I think that working together, and with the 
leadership that the Attorney General brings to the table, and 
the Director of the FBI brings to the table, we will make a 
significant difference, Mr. Chairman.
    Senator Gregg. Well, that is absolutely key. Cooperation 
and coordination.

                     Additional committee questions

    And so I thank you both for your time. You have been very 
courteous, giving us over a 1\1/2\ hours here, and we very much 
appreciate it.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Pete V. Domenici
                             u.s. attorneys
    Question. Attorney General Reno, I regret that I was unable to 
attend the hearing on February 24th when you gave testimony on the 
President's overall budget request for the Department of Justice for 
fiscal year 1999. The following week when the heads of the Immigration 
and Naturalization Service (INS), Federal Bureau of Investigation 
(FBI), and Drug Enforcement Administration (DEA) were before the 
Subcommittee, we discussed the Administration's proposal to provide 
additional law enforcement resources to Indian country. I indicated 
that I would like to submit a question to you regarding the activities 
of the United States Attorneys on Indian reservations. I would 
appreciate it if you would accept that question now.
    Could you provide the Committee with an idea of the current role 
the United States Attorneys play in assisting Indian tribes and pueblos 
in their law enforcement efforts?
    Answer. The United States Attorneys provide assistance and training 
to tribal governments to enhance their ability to address violent crime 
and juvenile crime at the tribal level. Federal law enforcement is the 
only avenue of protection for the victims of these crimes. United 
States Attorneys in Indian Country are effectively district attorneys 
for the citizens in their districts; they have the sole responsibility 
for prosecuting all major crimes committed by or against Indians on the 
reservations in their districts.
    Question. Has the overall level of activity of the United States 
Attorneys on Indian reservations across the nation increased over the 
past one to two years? If so, in what specific areas have United States 
Attorneys focused their resources in Indian Country?
    Answer. The primary focus has been on violent crimes committed in 
Indian Country. Case filings have increased from 330 in 1993 to 531 in 
1997, an increase of nearly two-thirds. These cases include all types 
of violent crimes from felony basic assaults and murder to child sexual 
abuse. However, many instances of violent crime go unreported as there 
is limited investigative agency presence. The Administration's proposal 
addresses this need and adds a concomitant number of prosecutors 
required to direct investigations and prosecute acts of violence.
    Question. The fiscal year 1999 budget request includes $3.47 
million and 35 positions (26 attorneys) to focus on reducing violent 
crime, including gang-related and juvenile crime, on Indian 
reservations. How would these additional resources be specifically 
utilized if provided by the Congress?
    Answer. Our strategies, if these resources were provided, include:
  --Fully implementing the Major Crimes Act, the Indian Country Crimes 
        Act, the Indian Child Protection Act, the Violent Crime Control 
        and Law Enforcement Act of 1994, the Anti-Terrorism Act of 
        1996, and the Anti-Gang and Youth Violence Act of 1997;
  --Supporting comprehensive strategies to target and fight overall 
        violent crime, violent gangs, and youth crime through the 
        establishment and continuation of multi-agency and federal and 
        tribal task forces, such as the Safe Trails Initiatives and 
        Weed and Seed designations in Indian Country;
  --Continuing the United States Attorneys' support of the Department 
        of Justice's Anti-Violent Crime Initiative;
  --Providing additional assistance and training to tribal governments 
        to enhance their ability to address violent crime and juvenile 
        crime at the tribal level; and
  --Assisting tribes in developing and implementing Child Protection 
        Teams and Multi-Disciplinary teams to address the serious 
        problem of child physical and sexual abuse.
    Question. I am under the impression that in New Mexico at least 
there is a recognition by the Department and the United States 
Attorneys that more must be done to assist Indian tribes and pueblos 
with law enforcement efforts? Has the Department recognized this need? 
Is that recognition adequately reflected in the fiscal year 1999 budget 
request?
    Answer. The Department and the Administration recognize the 
critical need to assist Indian tribes with law enforcement needs. After 
the Presidential initiative was issued, an Executive Committee 
consisting of leaders from the federal and tribal governments examined 
the law enforcement problems and determined that a substantial infusion 
of resources into Indian Country law enforcement is essential. At the 
request of the Executive Committee, United States Attorneys led an 
unprecedented series of tribal consultations on Indian Country law 
enforcement across the country during September and October 1997. A 
report was presented to the Attorney General and the Secretary of the 
Interior in October 1997 providing options for improvement in public 
safety and criminal justice in Indian Country. The needs of the New 
Mexico Office were included as were all offices that have exclusive 
federal jurisdiction in Indian Country.
                    counterterrorism technology r&d
    Question. With the leadership of our distinguished Chairman, 
Senator Gregg, this Subcommittee began a significant counterterrorism 
initiative in the 1997 bill. These initiatives were greatly expanded 
for fiscal year 1998.
    The 1998 Commerce, Justice, State, and the Judiciary Appropriations 
bill established a Counterterrorism Fund, providing $52.7 million for 
several initiatives. The Fund included $11.5 million to undertake a 
counterterrorism technology research and development program. The 
Subcommittee provided $1 million for the Attorney General, in 
consultation with other federal agencies, to develop a five-year, 
inter-departmental counterterrorism and technology crime plan.
    Ms. Reno, can you provide the Subcommittee with a status report on 
the development of this counterterrorism and technology crime plan?
    Answer. The Conference Committee Report accompanying the 1998 
Justice Appropriations Act requires the Department of Justice to 
develop an interdepartmental Counterterrorism and Technology Five Year 
Plan by December 31, 1998. In response to this Congressional directive, 
representatives from the Department and the FBI developed an ambitious 
13-page outline of issues to be addressed in the final Five Year Plan. 
This outline has been circulated to other agencies with key 
counterterrorism responsibilities and their comments incorporated into 
the outline.
    A projected work plan has also been developed to assist the 
Department in meeting the deadline of December 31, 1998 for submission 
of the final Plan to Congress. In order to ensure the maximum amount of 
interdepartmental participation in the development of the Five Year 
Plan, a Core Agency Group, consisting of high ranking representatives 
of 15 other federal agencies which have various counterterrorism 
responsibilities within the government, has been established to help 
develop the Plan. The Core Agency Group had its first meeting on March 
5, 1998. Each agency was asked to complete a lengthy questionnaire 
soliciting information about current and anticipated programs, 
training, research and development projects, and projected resource 
needs in order to fight the perceived terrorist threat over the next 
five years. Responses to the questionnaire will form the basis of a 
discussion paper for use by specialized working groups to be 
constituted from experts identified within the Core Agencies.
    The working groups will meet during the spring to address major 
areas of concern, such as crisis management, consequence management, 
cyber-terrorism, information sharing and intelligence, critical 
technologies/research and development. The working group discussions 
and recommendations will form the basis for developing an interim Plan 
that will be circulated to state and local officials, academic experts 
and experts in the private sector for review and discussion during the 
summer. The drafting of the final Five Year Plan will therefore reflect 
consultation with the major federal agency participants in efforts to 
combat terrorism as well as consultation with affected state and local 
representatives, and experts from academia and the private sector. As a 
result, the Department expects that the final Plan will be a truly 
comprehensive one.
    Question. Has the Department submitted a prospectus with estimated 
time lines and major milestones for completion of this plan to the 
Committees as was requested by February 1?
    Answer. The Department has submitted to the Committees the 13-page 
outline as well as an organizational chart and a chart of key dates and 
milestones for completion of specific phases of the project through 
submission of the Five Year Plan to the Committees.
    Question. Which specific federal agencies are involved in this 
interagency effort?
    Answer. We have sought input from more than 20 federal agencies and 
components in the development of the Plan. These agencies all have 
counterterrorism responsibilities as part of their mission and have 
identifiable programs and activities in which they are engaged in order 
to carry out those responsibilities. We have asked each of these 
agencies to reach down to all their relevant components in responding 
to a survey we distributed as our primary information-gathering tool. 
The responses we have received thus far indicate that these agencies 
are doing just that: they are providing candid and comprehensive 
responses. The agencies involved include those with which Congress 
directed me to consult in the development of the Five Year Plan: the 
Departments of Defense, State and the Treasury, and the Central 
Intelligence Agency (CIA) and FBI. In addition, I have sought the 
involvement of additional federal agencies and components: the 
Departments of Energy (DOE), Commerce, Transportation, and Interior, 
the National Security Agency, the Public Health Service (PHS), Federal 
Emergency Management Agency (FEMA), the United States Information 
Agency, the Nuclear Regulatory Commission, the Environmental Protection 
Agency (EPA), the White House Office of Science and Technology, the 
General Services Administration, and the United States Postal Service. 
Throughout the development of the Plan, we will consult with the Office 
of Management and Budget (OMB) as well as the National Security Council 
(NSC), to ensure that proposals being considered for inclusion in the 
Five Year Plan comport with other vital budgetary and national security 
priorities in the area of counterterrorism.
    Question. Do you anticipate consulting with Congress as this plan 
is developed?
    Would you expect to complete this plan by the end of this calendar 
year as directed by the Appropriations Subcommittees?
    Answer. The Department recognizes the great interest that Congress 
has in the development of the Five Year Plan. Understanding this 
interest, the Department has been consulting with members of the 
Congressional Subcommittees, as well as members of the staff of each 
subcommittee, in creating the outline for the Plan and discussing the 
proposed development of the Plan from that outline. The Department 
anticipates additional consultation with Congress as the Plan develops 
during the next several months at the working group level. The 
Department has developed the organizational plan and the work plan with 
the expectation that the final Plan will be completed and submitted to 
Congress by December 31, 1998. The breadth of the outline, as well as 
the directive to create a plan that is truly interdepartmental in 
nature, however, demonstrates that the project is an extremely 
ambitious one.
    The Department is committed to working to complete the Plan and 
submit it to Congress by the end of this calendar year; the scope of 
the project and the amount of interagency coordination required to 
finalize a comprehensive Five Year Plan may make that deadline a 
challenging one to meet. We will advise the Subcommittees, as the 
project progresses during the next several months and as the various 
expert working groups meet to develop their recommendations, as to any 
necessary adjustments to the present timetable.
    Question. How much is requested in the President's fiscal year 1999 
budget for the Department of Justice to continue counterterrorism 
initiatives?
    How does this compare to the funding provided for these programs in 
fiscal year 1998? Could you provide these estimates by agency and 
program?
    Answer. The Department's fiscal year 1998 budget includes $652 
million related to counterterrorism/antiterrorism efforts, including 
prevention, investigation, prosecution, detention, and incarceration. 
This level reflects recent counterterrorism enhancements received in 
1995, 1996, 1997, and 1998, as well as prorated segments of agency 
program resources related to, or supporting, counterterrorism 
activities. In 1999, the Department's counterterrorism-related 
resources total $666 million. The chart below breaks out these resource 
levels, by agency and by function.
    In addition, the following identifies the $60.3 million in specific 
agency program enhancements requested in the 1999 budget related to 
counterterrorism and threats to the nation's critical infrastructure/
Cybercrime, as well as the current 1998 funding for these programs:
Counterterrorism/Cybercrime Initiative
    The United States relies heavily upon its interconnected 
telecommunications and automated information systems for basic services 
such as energy, banking/finance, transportation, and defense. Any 
broadly successful effort by an individual, group, or country to 
disrupt, destroy, or deny access to the National Information 
Infrastructure (NII) could result in serious economic, defense, 
national security consequences. This threat is heightened by the 
increasing number of incidents of computer intrusions by individuals 
who, although possessing limited resources, have demonstrated the 
capability to extensively compromise sensitive computer and 
telecommunications networks.

                        1999 COUNTERTERRORISM AND CYBERCRIME INITIATIVE BY COMPONENT \1\
----------------------------------------------------------------------------------------------------------------
                                                                                      Agents/
                                                                     Positions       Attorneys        Amount
----------------------------------------------------------------------------------------------------------------
Federal Bureau of Investigation (FBI)...........................             133            (75)     $22,019,000
Criminal Division (CRM).........................................              17            (13)       1,552,000
Attorney General's Counterterrorism Fund (CTF)..................  ..............  ..............      36,703,000
                                                                 -----------------------------------------------
      Total.....................................................             150            (88)      60,274,000
----------------------------------------------------------------------------------------------------------------
\1\ Excludes requested United States Attorney resources of 36 positions and $3,630,000, associated with the
  prosecution of persons responsible for the commission of criminal offenses involving the use of computers and
  computer systems.


                               CURRENT 1998 COMPONENT CYBERCRIME PROGRAM RESOURCES
----------------------------------------------------------------------------------------------------------------
                                                                                      Agents/
                                                                     Positions       Attorneys        Amount
----------------------------------------------------------------------------------------------------------------
Federal Bureau of Investigation (FBI)...........................             167            (99)     $23,909,000
Criminal Division (CRM).........................................              21            (16)       2,345,000
Attorney General's Counterterrorism Fund (CTF) \1\..............  ..............  ..............  ..............
                                                                 -----------------------------------------------
      Total.....................................................             188           (115)      26,254,000
----------------------------------------------------------------------------------------------------------------
\1\ Of the $52.7 million provided within the CTF in 1998, $20 million is to be used for reimbursing Departmental
  components for extraordinary costs incurred in support of efforts to counter, investigate, or prosecute
  terrorism, and to restore the operational capabilities of offices destroyed or damaged by terrorist acts. The
  remaining $32.7 million in 1998 funds will be used as follows: $1 million to develop a comprehensive
  intergovernmental counterterrorism and technology strategy, $10.5 million for counterterrorism research and
  development, $16 million for State and local first responder training and equipment, and $5.2 million for
  State and local bomb technician training at FBI's Hazardous Devices School.

    The Department's 1999 budget includes $60.3 million in additional 
funding for counterterrorism/Cybercrime for the following:
    Cybercrime and Counterterrorism Investigations.--The FBI's request 
includes 124 positions (75 agents) and $11.6 million to establish six 
additional Computer Crime Squads in Atlanta, Boston, Charlotte, Miami, 
Minneapolis, and Seattle.
    Cybercrime/Counterterrorism Coordination, Threat Assessment, and 
Early Warning.--The FBI's request includes 9 positions and $10.4 
million in additional resources for the National Information Protection 
Center (NIPC), formally the Computer Investigations and Infrastructure 
Threat Assessment Center. Of this amount, $4.6 million is to conduct 
infrastructure vulnerability assessments and $4.3 million is to develop 
a comprehensive Early Warning System. In addition, the request includes 
funding for training, Computer Crime Squad equipment, and staff to 
expand the operations of the Watch and Threat Analysis Unit.
    Legal/Technical Challenges.--The Criminal Division's request 
includes 17 positions (13 attorneys) and $1.6 million for the Computer 
Crime and Intellectual Property Section (CCIPS) to keep pace with the 
rapidly changing legal and technological environment associated with 
Cybercrime cases. The Criminal Division plays a critical role in the 
Federal effort to protect critical infrastructure, secure lawful use of 
the Internet, and respond to information warfare. The Division provides 
advice to and coordinates Federal efforts with State, local and foreign 
governments.
    Implementation of the Recommendation of the President's Commission 
on Critical Infrastructure Protection.--The Attorney General's 
Counterterrorism Fund request includes $36.7 million, including $33.6 
million to implement the recommendations of the President's Commission 
on Critical Infrastructure Protection, including funding for the 
expansion of the NIPC and $3.1 million to ensure the continuance of 
essential DOJ/FBI functions during an emergency.
    In addition to the requested enhancement, the Counterterrorism Fund 
includes $16 million in recurred funding to continue efforts to equip 
and train State and local first responders to terrorist incidents.
    Question. The FBI has requested $11.6 million and 124 positions 
(including 75 agents) to establish new Computer Investigations and 
Infrastructure Threat Assessment Squads in six major cities to prevent 
computer-related, or ``Cybercrime.'' How does this fit into the 
counter-terrorism efforts by the Department?
    Answer. The establishment of the Computer Investigations and 
Infrastructure Threat Assessment (CITA) squads is due, in part to the 
inclusion of the National Information Infrastructure with the FBI's 
National Security Threat List, as well as the Presidential Decision 
Directive--39, in July 1995. These attacks, which could be carried out 
by terrorists, criminals, hackers, or foreign agents, might be directed 
against the United States Government or United States corporations, 
establishments, or persons and could target physical facilities, 
personnel, information, or computer, cable, satellite, or 
telecommunications systems. These teams have responsibilities over both 
the criminal investigative and the potential national security 
implications of computer intrusions.
                        first responder training
    Question. Attorney General Reno, I am concerned about the 
Administration's proposal for the Counterterrorism Fund for fiscal year 
1999.
    The fiscal year 1998 Commerce, State, Justice and the Judiciary 
Appropriations bill established a Counterterrorism Fund, providing 
$52.76 million for several initiatives. The Fund included $21.2 million 
to improve State and Local Response Capabilities in cases of possible 
chemical or biological agents or explosive devices. This would be 
achieved through the purchase of equipment and gear for first responder 
training efforts by experts in the field.
    What is the department doing to fully utilize facilities and 
expertise in First Responder Training for Weapons of Mass Destruction? 
How do you envision this initiative getting some practical results--in 
other words, getting training out to the field so that our law 
enforcement agencies have the ability to respond to terrorists 
incidents if called upon?
    Answer. In 1998, Congress provided $21,200,000 in the 
Counterterrorism Fund to improve state and local response capabilities 
in case of possible chemical or biological agents or explosive devices. 
Of this amount, $5,200,000 was provided for the FBI's Hazardous Devices 
School at Redstone Arsenal, Hunstville, Alabama. These funds will be 
used for the expansion and renovation of the Hazardous Devices School, 
which will allow the FBI to double the number of bomb technicians 
trained each year for improvised explosives and WMD matters. In 
addition, the funding will provide certain items and articles of 
equipment for response to improvised explosive devices by bomb squads, 
including Percussion Actuated Nonelectric disrupters, robots, and 
reference materials.
    Congress also provided $16,000,000 in the Counterterrorism Fund for 
first responder equipment and training, specifically: (1) $12,000,000 
to provide grants for acquisition of terrorism-related equipment for 
state and local agencies; (2) $2,000,000 for support operations of the 
state and local training center for First Responders at Fort McClellan, 
Alabama; and (3) $2,000,000 for operations of a similar training center 
at the New Mexico Institute of Mining and Technology. On March 26, 
1998, I signed a memorandum delegating responsibility for these 
programs to the Assistant Attorney General, Office of Justice Programs 
(OJP).
    OJP's long history and experience working with state and local 
jurisdictions provides the knowledge and infrastructure to effectively 
and efficiently administer these programs. OJP will work extensively 
with the FBI in curriculum development and determining state and local 
requirements for the equipment program. OJP will also coordinate its 
efforts with OJP's National Institute of Justice's Office of Science 
and Technology and Bureau of Justice Assistance, the Executive Office 
of National Security, and other federal agencies as appropriate.
    OJP has a long history of working with state and local agencies to 
administer and implement grant programs and has established strong, 
positive relationships with these jurisdictions. This, combined with 
OJP's proven record of designing and implementing anti-terrorism 
training for state and local jurisdictions, speaks strongly for OJP's 
ability to administer these initiatives and provide first responders 
with hands-on training, technical assistance and the field exercises 
required to prepare them to meet the challenges of responding to 
terrorist acts.
    OJP will develop a comprehensive state and local assistance 
``umbrella'' that will administer the new equipment program and the 
training initiatives at Fort McClellan, Alabama and at the New Mexico 
Institute of Mining and Technology, along with OJP's current $5 million 
First Responder Training Program for Fire and Emergency Medical 
Personnel. This umbrella will provide a focused, responsive, long-term 
national capability to execute a comprehensive and highly coordinated 
first responder training, test, and exercise program.
    OJP's efforts will also include the utilization of a consortium of 
universities, research institutions and other facilities that have 
resources and expertise critical to the success of any program designed 
to assist state and local jurisdictions respond to terrorist acts. 
Initially, OJP will coordinate efforts with the several university and 
research facilities included in the Conference Report. This will 
further ensure that appropriated funds are used in a coordinated and 
complementary manner. Further, such a consortium will provide OJP a 
means to identify and coordinate resources and expertise that exist at 
other universities and institutions across the nation.
    OJP's existing grant-making infrastructure will enable it to 
effectively and efficiently develop and implement the equipment 
acquisition grant program, and will ensure these funds are obligated as 
quickly as possible. Such equipment will include protective gear and 
detection, decontamination and communications equipment. These 
discretionary grants will be jurisdiction-specific and will be awarded 
based on guidelines and criteria being developed by OJP in cooperation 
with the FBI, which will consider the equipment needs of fire, 
emergency medical services, hazardous materials response teams, and law 
enforcement. This equipment list is also being coordinated with the 
National Fire Academy and the International Association of Fire Chiefs. 
OJP will provide necessary technical assistance to the applicant 
agencies to ensure that the equipment acquired through this program is 
the most appropriate and technologically advanced available. The demand 
for first responder equipment is tremendous; there are an estimated 
3,000,000 to 5,000,000 first responders working across the Nation.
    With respect to the training program under development at Fort 
McClellan, OJP is designing an incident management course for fire and 
command staff as well as a tactical considerations course for hazardous 
materials units and emergency medical personnel. OJP is in the process 
of determining what personnel should be trained at the Fort, although 
first responder training could be appropriate for state and local law 
enforcement, firefighters, emergency medical personnel, public works 
personnel, and state and local emergency management employees.
    OJP is also working with the New Mexico Institute of Mining and 
Technology, which already has a training program in place, to establish 
agreements as to training curriculums, trainers and trainee groups.
    Question. Is it your intention to develop a comprehensive and 
integrated first responder training program that utilizes existing 
expertise and resources that are currently available?
    Answer. Yes. The Attorney General's decision to delegate to the 
Office of Justice Programs (OJP) the responsibility to administer the 
first responder training programs at Fort McClellan and the New Mexico 
Institute of Mining and Technology was based on OJP's experience in 
working with state and local jurisdictions and its existing 
infrastructure, which allow it to efficiently implement training and 
grant programs. In accepting the responsibility, OJP will coordinate 
its national first responder training activities--including curricula 
and exercise development--with other federal agencies including the: 
FBI, Executive Office of National Security, Department of Defense 
(DOD), and FEMA, as well as those universities and national research 
facilities with the expertise necessary to provide for a full range of 
resources. This collaboration will ensure that our nation's first 
responders receive training that is (1) of the highest quality and 
utility; (2) non-duplicative; and (3) engineered to provide for the 
sustainment of knowledge and lessons learned.
    Question. What is the current schedule for the implementation of 
the First Responder training program?
    Answer. OJP is committed to having the Fort McClellan training 
facility operational immediately following the resolution of the 
outstanding environmental assessment (EA) that is required by the 
National Environmental Policy Act (NEPA). OJP has drafted an 
Interagency Agreement (IAA) with the Army Corps of Engineers to assist 
us in determining if OJP's planned training activities at Fort 
McClellan will pose any significant adverse impact on the environment. 
This agreement should be in place soon. Barring any unusual 
circumstances, the EA should be complete by June 30, 1998. In the 
meantime, OJP is working with the Fort McClellan Reuse and 
Redevelopment Authority (FMRRA), and entered into an IAA with them on 
May 4, 1998. This IAA will allow FMRRA to begin the pre-implementation 
planning activities for OJP such as: refinement of the Program of 
Instruction; inventory of existing facilities and equipment; 
development of a short-term (18 month) planning strategy and a long-
term use plan; and development of the memorandum of understanding (MOU) 
with the Department of the Army for use of specific facilities at Fort 
McClellan (classrooms, offices, dormitories, etc). These activities 
will be conducted concurrently with the EA.
    OJP is also collaborating with the New Mexico Institute of Mining 
and Technology (NMI) to develop a first responder training initiative--
similar to the one at Fort McClellan. OJP has had planning meetings 
with NMI to discuss NMI's training capabilities and options for how NMI 
efforts can support an overall national training approach for first 
responders. As a result of these meetings, OJP and NMI have defined a 
critical unmet need for NMI to focus its efforts on in 1998.
    NMI's principle task will involve building on OJP's progress in 
providing critically-needed awareness training to local fire and 
emergency medical personnel; specifically, OJP will task NMI to modify 
OJP's Emergency Response to Terrorism: Basic Concepts curriculum, which 
currently targets local fire and emergency medical personnel, to target 
the unmet need for a similar curriculum for local law enforcement 
personnel. In addition to modifying the existing curriculum, NMI will 
deliver this 16-hour awareness program through training that will 
provide both a train-the-trainer component for targeted jurisdictions, 
as well as support on-site training by the certified trainers trained 
through the train-the-trainer component. This OJP/NMI effort focuses on 
local law enforcement and does not duplicate any Nunn-Lugar-Domenici 
training activities.
    NMI has submitted a preliminary grant application to OJP for 
review. A final NMI application will be submitted by May 22, and OJP 
plans to make an award to NMI by June 12. In the interim--during the 
expected 30-day grant award process--OJP will provide NMI with standard 
pre-agreement costs so it can begin its planned program/assessment 
activities.
    Bringing these two facilities online will provide OJP with two 
critical elements in its overall approach to developing and conducting 
a national program to train first responders to more effectively and 
efficiently respond and manage terrorist incidents, and will complement 
OJP's ongoing training, which targets local fire and emergency medical 
personnel.
    Question. Attorney General Reno, the fiscal year 1999 budget 
request includes $52.7 million for the Counterterrorism Fund, the same 
as the 1998 level. However, the budget eliminates funding for 
technology R&D which is funded at $10.5 million this year. These funds 
will be used for first responder training.
    Does the 1999 budget request of the Department of Justice include 
any funding to continue support for first responder training?
    I understand that the Department is planning a $40 million program 
for 1999 for first responder training. However, these resources are not 
in the Department of Justice budget. What funding does the 
Administration plan to use for this purpose in 1999 to continue this 
initiative?
    Answer. The Department's 1999 budget request includes funding to 
continue support for first responder training. The Department has 
requested $16 million from the Counterterrorism Fund to continue to 
provide Weapons of Mass Destruction response equipment and training for 
state and local first responders. In addition, the Department has 
requested $5 million in 1999 to continue the first responder training 
program for local firefighters and emergency medical service personnel.
    The Department is not planning a separate $40 million first 
responder training program for 1999. Rather, it is involved, through 
the FBI, in the five-year Nunn-Lugar-Domenici Domestic Preparedness 
Program (NLDDPP) that provides training and assistance to first 
responders. This effort is funded solely through the DOD as authorized 
by the National Defense Authorization Act (Public Law 104-201). The DOD 
received $39.8 million in 1998 to provide training under NLDDPP and 
will receive $49.2 million in 1999. None of these DOD funds have been 
provided for use by the Department of Justice in the past, and at the 
present time I am not aware of plans to distribute the funds to the 
Department of Justice or any other federal agency.
    In an effort to consolidate first responder training, I signed a 
memo on March 26, 1998, assigning the authority to the Office of 
Justice Programs (OJP) to administer three counterterrorism programs 
appropriated to me through the Counterterrorism Fund. These programs 
include (1) $12 million to provide grants for the acquisition of 
terrorism-related equipment for state and local agencies; (2) $2 
million to support operations of a state and local training center for 
First Responders at Fort McClellan, Alabama; and (3) $2 million for 
operations of a similar training center at the New Mexico Institute of 
Mining and Technology. This action streamlines these first responder 
resources under an organization--namely OJP--that has (1) extensive 
experience working with state and local jurisdictions and (2) can 
provide the knowledge and infrastructure to administer such programs 
effectively and efficiently. OJP will coordinate extensively with the 
FBI in curriculum development and recognizing State and local 
requirements.
    OJP has initiated a discussion with the National Emergency 
Management Association (NEMA), the association representing the State 
directors of emergency management. OJP officials made presentations on 
available terrorism training at NEMA's membership conference held in 
September 1997, in Boston, MA and February 1998, in Washington, D.C. 
Subsequent to the February conference, NEMA officials asked to meet 
with OJP to discuss areas where OJP and the state emergency management 
agencies could work more cooperatively in the terrorism area. A meeting 
was held with the President of NEMA, the NEMA Executive Director, and 
selected state emergency management officials on March 26, 1998, in 
Washington, D.C. to begin joint efforts to examine opportunities for 
Department of Justice and NEMA cooperation in the area of domestic 
terrorism and training and exercises to enhance state and local 
preparedness.
    OJP will also work with a consortium of universities, research 
institutions and other facilities that have resources and expertise 
critical to the success of any program designed to assist state and 
local jurisdictions respond to terrorist attacks. Initially, OJP will 
coordinate with the several university and research facilities included 
in the conference report accompanying the 1998 appropriations act. This 
consortium should provide OJP with a means to identify and coordinate 
resources and expertise that exist at other universities and 
institutions across the Nation.
    In addition, the OJP will administer the $5 million first responder 
training program for local firefighter and emergency medical services 
personnel, which is authorized under section 819 of the Antiterrorism 
and Effective Death Penalty Act of 1996. This training program provides 
basic counterterrorism training and incident management concepts to 120 
targeted metropolitan jurisdictions across the nation, which represent 
80 percent of the country's population. The 1999 requested funding of 
$5 million will allow for seamless continuation of this local training 
effort, which began in 1997, and will provide for the training of an 
estimated 30,000 individuals.
    Question. Is it Nunn-Lugar-Domenici funding that will be provided 
through the DOD for use by the Department of Justice?
    Answer. The DOD's Domestic Preparedness Program was formed under 
the fiscal year 1997 Defense Authorization Bill (Public Law 104-201), 
commonly known as the Nunn-Lugar-Domenici legislation. The bill 
provides funding for DOD to enhance the capability of Federal, State, 
and local emergency responders in incidents involving nuclear, 
biological, and chemical terrorism.
    DOD received $39.8 million to provide training under Nunn-Lugar-
Domenici in 1998. DOD retains these monies, but in conjunction with 
FBI, EPA, FEMA, DOE, and PHS, provides training and reimburses agencies 
for costs incurred. The Department of Justice was not appropriated 
Nunn-Lugar-Domenici funding from Congress.
    Question. Why doesn't the Justice Department budget include funding 
to assist in what will surely be an ongoing effort to train state and 
local law enforcement and emergency response personnel in 
counterterrorism methods and response?
    Answer. The Department's 1999 budget request includes funding to 
continue support for first responder training. The Department has 
requested $16 million from the Counterterrorism Fund to continue to 
provide Weapons of Mass Destruction response equipment and training for 
state and local first responders. In addition, the Department has 
requested $5 million in 1999 to continue the first responder training 
program for local firefighters and emergency medical service personnel.
               national infrastructure protection center
    Question. The 1999 budget does include $33.6 million in the 
Counterterrorism Fund to implement the recommendations of the 
President's Commission on Critical Infrastructure Protection (PCCIP). I 
do not believe that this report has been widely distributed, so could 
you describe the various uses to which this proposed funding would be 
directed?
    Answer. Executive Order 13010 designated as critical certain 
infrastructures whose incapacity or destruction would have a 
debilitating impact on our defense or economic security. Eight were 
named: telecommunications; electrical power; gas and oil storage and 
transportation; banking and finance; transportation; water supply; 
emergency services (including emergency medical services, police, fire 
and rescue); and government services.
    On October 13, 1997, the PCCIP submitted its report, entitled 
Critical Foundations: Protecting America's Infrastructures, to the 
President. The Commission noted that all of the designated critical 
infrastructures are increasingly dependent on information and 
communications systems that criss-cross the nation and span the globe. 
That dependence was cited as a source of rising vulnerabilities. While 
the Commission found no evidence of an impending cyber attack or 
electrical disaster which would have a debilitating effect on the 
nation's critical infrastructure, the panel did find widespread 
capability to exploit infrastructure vulnerabilities. Because the 
infrastructures are mainly privately owned and operated, the Commission 
concluded that critical infrastructure assurance is a shared 
responsibility of the public and private sectors. The Commission's 
report includes a variety of recommendations for improving the 
government's focus on infrastructure assurance, as well as suggestions 
for collaborative public and private organizational partnerships. The 
Administration is carefully weighing the findings and recommendations 
of the Commission and developing appropriate policies.
    In recognition of the broad range of the threat to critical 
infrastructures, and to bring about an interagency capability to 
detect, assess, and act upon threats and intrusion, the Department and 
the FBI developed a plan to expand the scope and responsibilities of 
its former Computer Investigations and Infrastructure Threat Assessment 
Center into a NIPC. As proposed, the NIPC would be jointly staffed by 
the FBI, other federal agencies, including the DOD, and the public 
sector. The NIPC will serve as a national resource that supports both 
cyber and physical emergency response efforts and helps determine if an 
incident, or series of incidents, is either a criminal or terrorist 
act, an effort to collect intelligence, or a hostile attack initiated 
by a foreign power. The NIPC was presented to the Administration for 
consideration since it makes policy decisions regarding the findings 
and recommendations of the PCCIP.
    Funding proposed for the Counterterrorism Fund would be used in 
1999 to implement the policies being developed by the Administration, 
including the NIPC. As proposed, this funding could be made available 
by the Attorney General to any federal agency, not just components of 
the Department of Justice, consistent with Administration policy 
decisions.
    Question. Which organizations would be the recipients of these 
funds?
    Answer. The funding proposed in the Counterterrorism Fund would be 
made available to federal agencies to implement Administration policy 
decisions to protect the nation's critical infrastructures.
    The FBI, as the host for the NIPC, would be a recipient of the 
funds. All entities associated with the NIPC, DOD, United States Secret 
Service (USSS), NSA, CIA, other government agencies, state and local 
authorities, and members of the private sector will benefit from the 
use of these funds as the NIPC mission will be forged as a joint 
effort.
    Question. Has the Department done an assessment of what resources 
might currently be available to meet some of these identified needs 
rather than creating a new use for the Counterterrorism Fund?
    Answer. Yes, the Department has worked closely with OMB to assess 
what resources are currently available to meet the above mentioned 
needs to prevent a duplication of effort.
    Question. Why is the Department of Justice the lead agency in this 
regard?
    Answer. The Department of Justice, acting through the FBI, has been 
given the lead role because of the FBI's unique role and authorities in 
the criminal investigative, counterintelligence, and counterterrorism 
area. Threats to the infrastructure can arise from a broad spectrum of 
sources, ranging from a disgruntled insider or juvenile hacker 
operating within the United States to a foreign intelligence or 
military service operating from abroad. Accordingly, the FBI may need 
to utilize its criminal investigative authorities and/or its foreign 
counterintelligence authorities effectively to investigative and 
respond to a cyber threat, depending on the source and nature of the 
threat.
    In addition, in the cyber world, it is often not possible to 
determine in the early stages of an intrusion the source, nature, 
scope, objective, or methodology of an attack. Therefore, it is 
impossible to determine whether it is a purely domestic, criminal 
matter, or involves a threat to the national security. It is also 
impossible to determine in many cases whether other agencies like the 
DOD or State, or intelligence agencies, have a role to play. However, 
in almost all instances, the intrusion will constitute a potential 
violation of federal criminal law, providing the FBI with jurisdiction 
to investigate. Both private sector owners and operators of the 
critical infrastructures have significant roles to play in protecting 
the nation's critical infrastructures. The NIPC, as an interagency, 
public-private partnership, brings representatives from the affected 
entities and establishes direct electronic connectivity with them.
                       mexico drug certification
    Question. I regret that I was unable to attend the hearing earlier 
this year where the Attorney General testified about the Department of 
Justice budget. I wanted to ask a question of the Attorney General 
which is unrelated to today's topic.
    Once again this year, the Administration has taken the 
controversial step of certifying that Mexico is fully cooperating with 
the United States in the drug war. It has been widely reported that you 
disagree with that decision, particularly in light of the continued 
corruption and increased drug violence in Mexico in the last year.
    What role does the Justice Department play in the certification 
process?
    Answer. The process begins with identification by the President of 
the major drug producing and drug transit countries; in 1997, there 
were 30 such countries. With respect to each country, the Department of 
Justice provides factual information and assessments to Administration 
personnel regarding the cooperation, or lack thereof, and compliance 
with the goals and objectives of the United Nations Convention Against 
Illicit Traffic in Narcotic Drugs and Psychotropic Substances. The 
subject areas in which the Department of Justice provided an assessment 
were: efficacy of narcotics laws and enforcement, including legislative 
initiatives and bilateral law enforcement cooperation; extradition; 
mutual legal assistance; money laundering and asset forfeiture; control 
of precursor and essential chemicals; maritime cooperation; political 
and official corruption; political will; and progress on any benchmarks 
set for the country. Various components of the Department of Justice 
also reviewed all parts of the draft International Narcotics Control 
Strategy Report (INCSR), including the country chapters and special 
chapters on money laundering and chemical control.
    DEA and FBI support the annual certification process by preparing 
country briefings on the major drug producing and transit countries. 
These agencies also provide assessments of narcotics enforcement; money 
laundering and asset forfeiture; control of precursor and essential 
chemicals; maritime cooperation; official and political corruption; and 
political will.
    Question. Did the Justice Department recommend to the 
Administration that it not certify Mexico this year? What specific 
facts led the Justice Department to make the recommendation it made?
    Answer. It would not be appropriate to reveal the internal 
discussions and deliberations regarding the Administration's ultimate 
certification decisions. We provided factual information to support our 
subject area assessments regarding Mexican cooperation and the other 
``major'' countries.
    Mexico is an indispensable partner in combating drug trafficking. 
While we believe that the Government of Mexico attained some 
significant achievements in 1997, there is more that needs to be done. 
In 1997, in the Department of Justice's view, President Zedillo 
continued to demonstrate his strong commitment to combating narcotics 
trafficking, which he recognizes to be the primary threat to Mexico's 
national security. In carrying out that commitment, the Government of 
Mexico continued to strengthen its national counter-drug efforts in 
certain respects.
    Extradition and Mutual Legal Assistance.--On November 13, 1997, I 
signed with Attorney General Madrazo a protocol to the existing 
bilateral extradition treaty to authorize the temporary surrender of 
persons for trial purposes and their return after prosecution to 
complete the process or sentence against them in the country of their 
initial arrest. In addition, the Government of Mexico extradited 13 
fugitives to the United States during 1997, six of whom were sought on 
drug charges; the Government of Mexico also expelled 10 other fugitives 
whose extradition had been requested (one wanted for narcotics-related 
offenses).
    Moreover, the Mutual Legal Assistance Treaty (MLAT) with Mexico was 
used with increasing frequency during 1997 in a wide range of cases, 
including narcotics and money laundering investigations. Under the MLAT 
and Mexico's Organized Crime Law, the Government of Mexico is now 
empowered to transfer important cooperating witnesses from prison in 
Mexico to the United States to testify in United States criminal 
proceedings.
    Money Laundering and Asset Forfeiture.--Further, we have seen some 
progress in the area of money laundering and asset forfeiture; the 
Mexican Government issued regulations establishing legal requirements 
for financial institutions concerning customer identification, 
reporting of suspicious transactions, and recording and reporting of 
large-value currency transactions.
    The Zedillo Administration also introduced new forfeiture 
legislation for consideration by the Mexican legislature; the bill 
addresses issues relating to the administration and disposition of 
forfeited assets and international asset forfeiture assistance. In 
addition, the Government of Mexico has provided useful asset forfeiture 
assistance in three drug cases: a $9 million civil forfeiture case 
against former Deputy Attorney General Mario Ruiz Massieu in Houston 
(Southern District of Texas); the criminal forfeiture judgment for $350 
million against Juan Garcia Abrego; and the seizure and ongoing 
forfeiture actions in the Amado Carrillo Fuentes matters in the 
Southern Districts of New York and Florida.
    Chemical Control.--In December 1997, the Government of Mexico 
passed a comprehensive chemical control law, which for the first time 
reaches ``essential chemicals'' used in the manufacture of cocaine and 
heroin. Once implemented, this law would bring Mexico into substantial 
compliance with the 1988 U.N. (Vienna) Convention.
    While the Government of Mexico has made strides in counterdrug 
efforts, we would like to stress that more action must be undertaken by 
the Mexican Government. Specifically, we would like to see improvements 
in the following areas: corruption remains widespread and disabling 
within all government institutions; the Bilateral Border Task Forces 
(BTF's) continue to be beset by numerous problems, including slow 
``vetting'' of investigators and prosecutors, leading to delayed 
staffing, and inadequate funding; although Mexican courts have found 
several Mexican citizens ``extraditable,'' the appeals process needs to 
move inexorably towards the goal of actually extraditing Mexican 
citizens on drug charges; there were no successful money laundering 
prosecutions in 1997; the Mexican PGR has yet to establish its money 
laundering/financial investigations unit; the Government's inability to 
follow up on United States leads regarding the illicit diversion of 
precursor and essential chemicals; and in an emerging area of 
cooperation, we hope to make progress against pharmaceutical drug 
diversion, for many licitly manufactured but dangerous prescription 
drugs legally sold in Mexican pharmacies are ending up on the black 
market in the United States.
    Question. Do you think it would bring more credibility to the 
certification process if a law enforcement agency like the Justice 
Department (including the DEA and FBI) took the lead role in the 
certification decision?
    Answer. Ultimately, the certification decisions are for the 
President to make, with the most fair and objective input possible from 
all pertinent government components. The President as the Chief 
Executive chooses the lead agency for this purpose. We note that 
Congress has designated the United States Department of State to take 
the lead in coordinating United States counter narcotics assistance to 
foreign countries. See 22 U.S.C. Sec. 2291(b). No other department has 
a presence like the State Department by way of embassies in virtually 
every country. This puts the State Department in an excellent position 
to assess counterdrug performance of each country. Typically, they do 
so in very close collaboration with Department components, including 
the DEA and FBI.
    Question. What role does the State Department play in the work the 
Justice Department (including the DEA and FBI) does with Mexico 
regarding drug trafficking?
    Answer. The State Department through the Narcotics Affairs Section 
takes the lead at the political level in our international counter 
narcotics cooperation with Mexico. The State Department also plays a 
major role in coordinating cooperation and assistance with Mexico. The 
law enforcement country officers are housed in the United States 
Embassy in Mexico City. The State Department, through the Bureau of 
International Narcotics and Law Enforcement Affairs, provides a large 
share of the funding for training, technical assistance and other 
resources provided by the United States government. Moreover, it does 
so in areas that are broader than law enforcement, including demand 
reduction and alternative development.
    Question. Which federal agencies are the most informed about the 
specific counternarcotics activities undertaken by a particular country 
and the level of cooperation the United States receives from particular 
countries?
    If Congress were to change the certification law, is there any 
reason why the Justice Department or DEA could not assume the lead 
responsibility for advising the President on whether a country is fully 
cooperating with the drug effort?
    Answer. Each federal agency is obviously best informed in its areas 
of responsibility, e.g., the DEA for operational drug law enforcement, 
the CIA for intelligence, the Department of Treasury for money 
laundering, the United States Coast Guard for maritime interdiction, 
and Health and Human Services for demand reduction.
    We are not recommending that Congress should change the 
certification law at this time. Other components could fulfill this 
role, but the State Department has the broadest mandate, and perhaps 
the best perspective, to coordinate all international counterdrug 
assessments.
    Question. Do you agree with the Administration's decision to 
decertify Colombia, but grant it a national interest waiver, while 
fully certifying Mexico? Were these decisions consistent given each 
country's level of cooperation? How would you compare the level of 
cooperation received from Colombia with that of Mexico? Did Mexico do a 
better job, a worse job or about the same?
    Answer. The Department provided factual information to 
Administration personnel regarding the cooperation (or lack thereof) of 
Colombia. I am happy to discuss with you the Department's law 
enforcement/legal assessment of Colombia. However it would not be 
appropriate to discuss the internal discussions and deliberations 
regarding the Administration's ultimate certification decisions.
    From a law enforcement/judicial perspective more action must be 
undertaken by the Colombian Government. We are particularly 
disappointed with: political corruption at the highest levels of the 
Colombian Government; lack of real political will; the Colombian reform 
of narcotics sentencing laws which provided excessively lenient 
sentence reduction provisions; Colombian drug kingpins' abilities to 
continue to operate their criminal enterprises from prison; the 
Colombian legislature's failure to enact a law amending their 
Constitution to address retroactively the extradition of Colombian 
nationals; ineffective chemical control; and failure to forfeit any 
assets in 1997.
    Nevertheless, the Colombian Government has, in recent months, made 
some strides in the two areas: the Government of Colombia did conduct 
some narcotics investigations in 1997; and they intensified eradication 
efforts, assigning more pilots and airplanes to the mission, which 
continued even in the face of armed resistance. Regrettably, however, 
new cultivations in areas that were not subject to the spray campaign 
have left Colombia with an increase in net coca cultivation--thus 
making Colombia number one in the world for coca cultivation.
                                 ______
                                 
           Questions Submitted by Senator Ernest F. Hollings
                               cybercrime
    Question. General Reno, as we all know, the protection of our 
nation's computer infrastructure is vital to national security. 
However, recent events, such as the one involving an Israeli teen 
breaking into a United States Defense Network, have clearly 
demonstrated the vulnerabilities that exist in this nation's computer 
systems. And as more and more public and private organizations are 
connected to the Internet, there is an ever growing potential for cyber 
terrorism.
    General Reno, how much money are you proposing to spend on 
combating threats to our nation's information systems?
    Answer. The United States relies heavily upon its interconnected 
telecommunications and automated information systems for basic services 
such as energy, banking/finance, transportation, and defense. Any 
broadly successful effort by an individual, group, or country to 
disrupt, destroy, or deny access to the National Information 
Infrastructure (NII) could result in serious economic, defense, 
national security consequences. This threat is heightened by the 
increasing number of incidents of computer intrusions by individuals 
who, although possessing limited resources, have demonstrated the 
capability to extensively compromise sensitive computer and 
telecommunications networks.
1999 Budget Request Related to Cybercrime/Infrastructure Protection
    The Department's 1999 budget includes $60.3 million in additional 
funding for Cybercrime and threats to our Nation's critical 
infrastructure.

                        1999 COUNTERTERRORISM AND CYBERCRIME INITIATIVE BY COMPONENT \1\
----------------------------------------------------------------------------------------------------------------
                                                                                      Agents/
                                                                     Positions       Attorneys        Amount
----------------------------------------------------------------------------------------------------------------
Federal Bureau of Investigation (FBI)...........................             133            (75)     $22,019,000
Criminal Division (CRM).........................................              17            (13)       1,552,000
Attorney General's Counterterrorism Fund (CTF)..................  ..............  ..............      36,703,000
                                                                 -----------------------------------------------
      Total.....................................................             150            (88)      60,274,000
----------------------------------------------------------------------------------------------------------------
\1\ Excludes requested United States Attorney resources of 36 positions and $3,630,000, associated with the
  prosecution of persons responsible for the commission of criminal offenses involving the use of computers and
  computer systems.

    Cybercrime and Counterterrorism Investigations.--The FBI's request 
includes 124 positions (75 agents) and $11.6 million to establish six 
additional Computer Crime Squads in Atlanta, Boston, Charlotte, Miami, 
Minneapolis, and Seattle.
    Cybercrime/Counterterrorism Coordination, Threat Assessment, and 
Early Warning.--The FBI's request includes 9 positions and $10.4 
million in additional resources for the NIPC, formally the Computer 
Investigations and Infrastructure Threat Assessment Center. Of this 
amount, $4.6 million is to conduct infrastructure vulnerability 
assessments and $4.3 million is to develop a comprehensive Early 
Warning System. In addition, the request includes funding for training, 
Computer Crime Squad equipment, and staff to expand the operations of 
the Watch and Threat Analysis Unit.
    Legal/Technical Challenges.--The Criminal Division's request 
includes 17 positions (13 attorneys) and $1.6 million for the CCIPS to 
keep pace with the rapidly changing legal and technological environment 
associated with Cybercrime cases. The Criminal Division plays a 
critical role in the federal effort to protect critical infrastructure, 
secure lawful use of the Internet, and respond to information warfare. 
The Division provides advice to and coordinates federal efforts with 
state, local and foreign governments.
    Implementation of the Recommendation of the President's Commission 
on Critical Infrastructure Protection.--The Attorney General's 
Counterterrorism Fund request includes $36.7 million, including $33.6 
million to implement the recommendations of the President's Commission 
on Critical Infrastructure Protection, of which approximately $27 
million would be made available to the NIPC. Resources from the fund 
could also be available to reimburse other Federal agencies for their 
costs associated with protecting our Nation's critical infrastructure. 
Also included in the $36.7 million request is $3.1 million to ensure 
the continuance of essential DOJ/FBI functions during an emergency.
The FBI National Infrastructure Protection Center
    The FBI's NIPC will take on a larger, interagency role in fighting 
Cybercrime and computer intrusions, and will serve as the government's 
lead mechanism for responding to an infrastructure attack. To provide 
this capability, the NIPC's 1999 requirements are projected to be 85 
FBI positions (17 agents) and $51 million, of which 9 positions and 
$37.4 million represent program enhancements addressed above.

                           FBI NIPC RESOURCES
                         [Dollars in thousands]
------------------------------------------------------------------------
                                       Positions     Agt.       Amount
------------------------------------------------------------------------
1999 FBI Budget Enhancement.........           9  ..........     $10,412
1999 CT Fund Enhancement............  ..........  ..........      26,985
                                     -----------------------------------
      Subtotal, 1999 Enhancements...           9  ..........      37,397
                                     ===================================
1999 Base NIPC Resources \1\........          76          17      13,865
                                     ===================================
      1999 Total Requirements.......          85          17      51,262
------------------------------------------------------------------------
\1\ Note: 1999 base reflects the FBI's planned internal reallocation of
  7 support positions in 1998.

    Question. Will the money you are requesting get our nation's vital 
computer systems to a level at which they could be considered ``safe?''
    Answer. There is no question that the money we request will make 
the nation's vital computer systems much safer and, we hope, will 
achieve a level of security reasonable and acceptable for the critical 
services they provide. But this will be a difficult, long-term task, 
and achieving a nationwide standard of complete network safety is 
unlikely in the near future for several reasons. One of these reasons 
is that most of the nation's critical information infrastructure is 
neither owned nor controlled by government. While government can lead, 
teach, promote, deter, and defend, and can even regulate or legislate, 
many of the everyday decisions that separate a secure computer from an 
exposed one will be made by the private sector. In addition, whether a 
computer system is public or private, real computer security rests on 
at least four complex elements--all of which must be present and 
integrated.
    Technical solutions.--As in the physical world, ease and economy of 
access to data are constantly at odds with the security of that data. 
Every technical advancement that enhances the power, flexibility, and 
utility of information networks invites opportunity for technical 
errors that create unwitting vulnerabilities. The Boston teenager who 
acquired root control of a telephone company switch (and twice 
disrupted phone service for significant periods) did so by stumbling 
into a vulnerability unknown either to the phone company or to the 
manufacturer of the switch. Technology--expertly designed and 
employed--can solve many of our computer security problems, and the 
Department's initiative is aimed in large measure at promoting 
technical solutions. But technology is not perfect and will not be 
invulnerable anytime soon. Emerging technologies may also continue to 
create communications systems that enhance anonymity and make it more 
difficult to attribute harmful or illegal conduct to a particular 
individual. As technology develops, we must insure that while privacy 
is enhanced, accountability is maintained.
    Personnel security.--Even if technology could create perfectly 
secure systems, these systems are still administered and used by people 
who make mistakes or betray trust. Much of the former can be addressed 
by training, which is a large part of the Department's program. But 
other aspects of this issue are extremely complex. In these days of 
corporate downsizing, outsourcing, deregulation, and multinational 
mergers, it is harder than ever for owners or operators of vital 
networks to control or even know who has unlimited access. Both in 
government and in industry, we have seen cases where, through a series 
of subcontracts or international mergers, for example, some surprising 
fingers have gained authorized access to sensitive keyboards.
    Law enforcement response.--When security breaches occur, government 
must have a coordinated network of agents and prosecutors, well-trained 
and equipped with state-of-the-art technical tools, to quickly 
ascertain the facts, stop the attack, and bring the criminals to 
justice. National and international laws--both substantive and 
procedural--must be updated and integrated to facilitate rapid global 
investigations. This, clearly, is the primary focus of the Department's 
program.
    Public opinion.--For reasons apparent in the three items discussed 
above, computer security is neither easy nor free, but this is not yet 
common knowledge. Nor is it widely understood that computer security 
can be just as important to national well-being as traditional physical 
or national security. As in the physical world, it is much simpler, 
cheaper, and faster to access data in a system with no technical 
security--no firewalls, one-time password-generators, encryption, or 
network security monitors. It is much more convenient not to practice 
secure computing or worry about personnel security. It will be very 
difficult for industry to ask the public to spend the money and bear 
the inconvenience of secure information systems if the public does not 
see the need. Thus, working toward public education and awareness is 
also an important way in which government can strongly support the 
efforts of the private sector to enhance the security of our 
information systems.
    Question. What are we doing to help private industry safeguard 
their vital computer networks?
    Answer. Both the Department's CCIPS and the interagency NIPC housed 
at the FBI have worked formally and informally with industry to enhance 
the security of the private infrastructure. In broad terms, the 
Department is supporting industry by working in all four of the areas 
discussed above. Some of these efforts include CCIPS's six-year-old 
Industry Information Group, countless presentations to industry and 
technical conferences, participation with groups such as the Computer 
Emergency Response Team (CERT) at Carnegie-Mellon University, the 
National Security Information Exchange (NSIE), and the Bankers' 
Information Technology Secretariat (BITS). Further, both CCIPS and the 
NIPC work closely with industry on security incidents and issues, not 
only for criminal investigative purposes, but also for incident 
prevention.
    The Department and the private sector are increasingly sharing 
information and expertise, and the Department is looking for ways to 
expand this partnership. Indeed, the NIPC is creating an Outreach and 
Field Support Unit to enhance industry ties. The NIPC is also including 
industry as a customer of its Watch and Warning Unit so that current 
information about system vulnerabilities can be disseminated quickly 
and securely. The Department is also experimenting with solutions like 
Infraguard, a law enforcement-industry initiative in Cleveland that 
establishes protocols for reporting and disseminating information about 
security problems.
    Question. General Reno, surprisingly, a number of illegal 
incursions into restricted computer networks are perpetrated by 
teenagers. To many of them, breaking into restricted networks is seen 
as a challenge or mischievous prank, and is not intended as a terrorist 
act. Nevertheless, their actions are certainly considered criminal 
activity, and therefore take valuable investigative resources away from 
the investigation of other possible terrorist activity.
    So, what will your agency do to impress on young people that this 
type of activity is not a game, and that offenders will be prosecuted 
to the fullest extent possible?
    Answer. First of all, we are prosecuting them to the fullest extent 
possible and publicizing that fact, both to deter them and to deter 
others. When the statute requires United States Attorneys to obtain 
declinations from state prosecutors (where the state has a concurrent 
offense), we are doing this in appropriate cases. As you know, the 
Boston teenager who interrupted telephone service was prosecuted 
federally and his case announced (without his name) at a press 
conference by the United States Attorney and Bell Atlantic. News of 
this case, specifically written for children (titled ``You CAN Get in 
Trouble for Hacking''), will soon be posted on the Department's Web 
Page devoted to children, called the DOJ KidsPage (found at 
www.usdoj.gov/kidspage). There is material on the KidsPage for 
children, parents, and teachers on many topics, and our Cybercrime 
materials were created by the prosecutors at the Computer Crime 
Section. Already posted are our Internet Rules of the Road--rules by 
which children can protect themselves and respect the rights of others. 
Also at the site are information and teaching plans to assist 
instructors in presenting these issues to children in the classroom. 
Soon to be added is an interactive game called ``Are You a Good 
Citizen?''
    The prosecutors in our Computer Crime Section frequently raise 
exactly these issues in presentations to industry and the public, and 
have for some time argued the importance of teaching computer ethics in 
interviews with the press. Moreover, the Department is beginning plans 
for a more extensive public education campaign, which we hope will 
elicit the support of industry. We believe strongly that parents, 
teachers, and the rest of the adult world must teach our children not 
only how to use computers, but also how not to use them.
                      state and local cooperation
    Question. General Reno, as you know, no federal emergency plan will 
be successful unless there is close coordination with state and local 
governments. In many circumstances, state and local emergency agencies 
will be the first responders to a terrorist act. For this reason, the 
Nunn-Lugar-Domenici Amendment mandated that contingency plans be 
established in the event of a terrorist act involving weapons of mass 
destruction (WMD). This preparation includes the establishment of 
programs to train emergency personnel at all levels of government in 
how to respond to incidents involving WMD. This legislation also 
required that the DOD, along with the FBI, FEMA, EPA, DOE, and other 
relevant agencies, establish rapid terrorism response teams. These 
teams will assist state and local emergency authorities in the 
detection, containment, and disposal of WMD. You are requesting $16 
million to continue these initiatives.
    General Reno, as you have stated, to date 19 cities have received 
weapons of mass destruction training from the federal government, and 
101 cities are scheduled to receive training in the future. Could you 
give us a more detailed description of what that training consists of?
    Answer. Training is being coordinated by a federal interagency team 
composed of representatives from the FBI, FEMA, DOE, EPA, PHS, and DOD. 
Courses were developed to provide the necessary information and job 
skills, beyond those that currently exist in the first responder 
community, to safely and effectively respond to an incident involving 
weapons of mass destruction. These courses are designed to train the 
trainers in each of the cities that normally provide instruction to the 
first responders. The program uses a team approach combining the skills 
and expertise of the nation's nuclear, biological, and chemical 
specialists with the skills and expertise of emergency response 
experts. Six train-the-trainer courses are offered: Emergency Responder 
Awareness; Emergency Responder Operations; HazMat Technician; EMS 
Technician; Hospital Provider; and Incident Command. Two additional 
courses are offered directly to the specific audience. These include 
Basic Awareness, which is a 30-minute video targeted for non-
responders, and a Senior Officials' Workshop designed to instruct 
cabinet level officials and department heads.
    One hundred twenty cities were selected to receive training under 
Nunn-Lugar-Domenici through a collaborative effort. The DOD, with other 
federal agencies is authorized to provide training and assistance to 
enhance the capabilities of first responders to an incident involving a 
weapon of mass destruction. The United States Army Chemical and 
Biological Defense Command (CBDCOM), Aberdeen Proving Ground, Maryland, 
the center of DOD's chemical and biological expertise, is the lead DOD 
agency charged with enhancing existing metropolitan response 
capabilities to include nuclear, biological, and chemical incidents.
    DOJ's contribution to Nunn-Lugar-Domenici includes one class taught 
by the FBI. The FBI provides a terrorism threat briefing course that 
consists of a video that discusses the terrorism threat nationally, 
followed by information from field office representatives regarding the 
local threat.
    Following the initial training, table-top, and functional exercises 
provide opportunities for trained city participants to demonstrate 
practical decision-making applications of the training.
    Question. Have the training sessions been successful? Is there any 
type of follow up on the part of the federal government? How do we know 
that these cities are maintaining their state of readiness?
    Answer. The DOJ believes DOD's Nunn-Lugar-Domenici training program 
has been lacking; however, efforts are being made to improve the 
program. Many cities have voiced their frustrations that initial 
training has fallen short of expectations. A process has been developed 
to incorporate the cities' suggestions for improvement into subsequent 
training classes.
    The training is designed to train-the-trainer after which the city 
trains itself. Approximately six months following the initial training, 
the DOD returns to the city and provides full field chemical training 
exercise (FTX). A biological table top exercise is conducted 
approximately one month later. Through these exercises, the cities can 
assess their readiness levels and make appropriate adjustments to their 
training and response levels. DOD contract personnel currently maintain 
a listing of individuals whom they train in each city. However, further 
records are not compiled by the United States government.
    While Nunn-Lugar-Domenici training is supposed to be tailored to 
the specific needs of a local jurisdiction, based on preliminary 
assessments, actual experience has revealed that much of the training 
offered to date is centered on a standard, introductory course. Because 
this training is not tailored to the different types of first 
responders, it does not meet the specific operational requirements of 
firefighters, EMS personnel, or police officers.
    The FBI is working to improve communications between DOD and local 
public safety agencies through the established channels and close 
working relationships that have developed over the years between FBI 
field offices and their counterparts in the communities they serve. In 
addition, the DOJ is considering structuring the DOJ's State and local 
first responder WMD training and equipment programs to provide a city 
with more specialized training and the equipment to better prepare and 
outfit response agencies after the Nunn-Lugar-Domenici training.
    Question. How many state and local task forces have been 
established throughout the country? Will these state and local 
``emergency responders'' have access to the type of equipment necessary 
to effectively deal with an incident involving WMD?
    Answer. The Defense Against Weapons of Mass Destruction Act of 
1996, enacted as the Nunn-Lugar-Domenici Amendment (Nunn-Lugar II) to 
the DOD Appropriations Act for 1997, mandates that the Executive Branch 
undertake a number of requirements relating to preparedness to respond 
to the terrorist use of chemical and biological weapons within the 
United States. The Act mandates that DOD, in coordination with other 
relevant federal agencies, establish programs to advise and train 
civilian emergency preparedness personnel at all levels of government 
in planning for and responding to WMD incidents. In addition, it 
directs DOD to establish rapid terrorism response teams for the purpose 
of assisting such authorities in the detection, neutralization, 
containment, dismantlement, and disposal of weapons of mass 
destruction.
    Although the FBI does not have ``emergency responder'' task forces 
to address life and safety consequences of a WMD incident, i.e., 
decontamination and remediation, the FBI pursues crisis management 
planning with federal, state, and local law enforcement groups in order 
to prepare and respond, as directed under PDD-39, to WMD incidents.
    To enhance the federal, state, and local approach to terrorism, the 
FBI has established 16 joint terrorism task forces (JTTF) throughout 
the country. These JTTF's have been formed by the FBI to maximize 
interagency cooperation and coordination to create cohesive units 
capable of addressing terrorism problems within the United States. The 
mission of each JTTF is to detect, prevent and investigate individuals 
or groups carrying out terrorist acts directed against the United 
States.
    The JTTF's are composed of 212 full and part-time, federal, state, 
and local law enforcement personnel. Federal participants include the 
INS, USSS, Bureau of Alcohol, Tobacco and Firearms, United States 
Customs, and Postal Inspection Service, among others. Personnel on 
these JTTF's also may be members of the FBI's Evidence Response Team or 
certified bomb technicians. As such, they will receive training and 
related equipment that will allow them to respond to a terrorist 
incident involving a WMD.
                        wire tapping/encryption
    Question. General Reno, court ordered telephone intercepts are 
critically important to combating all types of crime, including 
domestic and international terrorism and counter intelligence threats.
    Could you please bring us up to speed regarding implementation of 
CALEA and encryption negotiations?
    Answer. This information will be forwarded to the Committee as soon 
as available.
    Question. Have you met with FCC Chairman Kennard to discuss these 
issues yet?
    Answer. This information will be forwarded to the Committee as soon 
as available.
    Question. What do you believe is the cost estimate if the 
communications industry gets its way on slipping the compliance date 
and other CALEA demands?
    Answer. This information will be forwarded to the Committee as soon 
as available.
                    nsc domestic antiterrorism czar
    Question. General Reno, a recent Washington Post article stated 
that a Domestic Anti-Terrorism Czar may be appointed within the 
National Security Council. The article stated that this individual 
would ``assign roles to the 18 federal departments or agencies--
including the FBI, CIA, and Pentagon--now involved in the 
counterterrorism effort, and have authority over everything from the 
development of yearly budget plans to rescue efforts after a terrorist 
attack.''
    General Reno, I thought it was your responsibility to coordinate 
efforts dealing with domestic terrorism? Are you comfortable with the 
proposal to establish an Anti-Terrorism Czar within the NSC? Do we 
really need this additional layer of bureaucracy?
    Answer. I strongly support the need for greater coordination of the 
counterterrorism plans, resources, and programs of the many departments 
and agencies that have important roles in our counterterrorism and 
infrastructure protection efforts. The need to achieve greater 
coordination and eliminate overlap and redundancy, as you know, is one 
of the drivers for the five-year counterterrorism and technology crime 
plan that I, along with my colleagues at the Departments of Defense, 
State, Treasury, Energy, the CIA, FEMA, and other agencies are 
developing. Similarly, I support a more focused effort within the 
National Security Council focused on infrastructure issues in order to 
ensure that programs across the government and outreach to the private 
sector are properly coordinated. I also believe that the President's 
National Security Adviser and his staff, in order properly to advise 
the President, require a mechanism through which they can receive 
timely information about matters in which the Department of Justice is 
engaged that affect the President's national security responsibilities. 
The NSC, for example, will play a key role in the President's decision 
on whether a criminal law enforcement investigation into a serious 
cyber intrusion should be treated as an attack on the United States. I 
believe that we can develop appropriate procedures that will enable 
Department of Justice prosecutors and other personnel to fulfill their 
law enforcement missions while facilitating the NSC's role as adviser 
to the President.

                         conclusion of hearing

    Senator Gregg. This hearing will be recessed, and we will 
move on to marking up the bill in the near future.
    [Whereupon, at 11:20 a.m., Tuesday, March 31, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                  <all>
</pre></body></html>
